<html>
<title> - THE ROLE OF ALLIES AND PARTNERS IN U.S. MILITARY STRATEGY AND OPERATIONS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 116-92]

                    THE ROLE OF ALLIES AND PARTNERS

                       IN U.S. MILITARY STRATEGY

                             AND OPERATIONS

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 23, 2020


                                     
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
43-158                    WASHINGTON : 2021 



                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
VERONICA ESCOBAR, Texas              MICHAEL WALTZ, Florida
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
ANTHONY BRINDISI, New York

                     Paul Arcangeli, Staff Director
                Matt Rhoades, Professional Staff Member
                  Kim Lehn, Professional Staff Member
                      Natalie de Benedetti, Clerk



                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Committee on Armed Services....................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Ranking Member, Committee on Armed Services....................     3

                               WITNESSES

Colby, Elbridge A., Principal and Co-Founder, The Marathon 
  Initiative.....................................................     8
Hodges, LTG Ben, USA (Ret.), Center for European Policy Analysis, 
  Former Commanding General, U.S. Army Europe (2014-2017)........     6
Wormuth, Hon. Christine, Director, International Security and 
  Defense Policy Center, RAND Corporation........................     4

                                APPENDIX

Prepared Statements:

    Colby, Elbridge A............................................    73
    Hodges, LTG Ben..............................................    61
    Wormuth, Hon. Christine......................................    49

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mrs. Hartzler................................................    97

Questions Submitted by Members Post Hearing:

    Mr. Golden...................................................   102
    Mr. Keating..................................................   101


 
      THE ROLE OF ALLIES AND PARTNERS IN U.S. MILITARY STRATEGY AND 
                               OPERATIONS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                     Washington, DC, Wednesday, September 23, 2020.
    The committee met, pursuant to call, at 12:02 p.m., in room 
200, Capitol Visitor Center, Hon. Adam Smith (chairman of the 
committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. All right. We will call the meeting to order. 
Members will take their seats.
    The full committee hearing this morning is on ``The Role of 
Allies and Partners in U.S. Military Strategy and Operations.''
    First, I have what my staff has told me is a shortened 
script to explain the virtual--the remote participants in our 
meeting. I will point out that all of our witnesses this 
morning are going to be participating remotely.
    So members who are joining remotely must be visible on 
screen for the purposes of identity verification, establishing 
and maintaining a quorum, participating in the proceeding, and 
voting.
    Those members must continue to use the software platform's 
video function while in attendance, unless they experience 
connectivity issues or other technical problems that render 
them unable to participate on camera. If a member experiences 
technical difficulties, they should contact the committee staff 
for assistance.
    Video of members' participation will be broadcast in the 
room and via the television/internet feeds. Members 
participating remotely must seek recognition verbally, and they 
are asked to mute their microphones when they are not speaking.
    This is actually important for all of us. Apparently if we 
leave the microphones when we are not talking, it causes 
feedback that we can't hear but they can hear if they are 
online.
    Members who are participating remotely are reminded to keep 
the software platform video function on the entire time they 
attend the proceedings.
    Members may leave and rejoin the proceeding. If members 
depart for a short while for reasons other than joining a 
different proceeding, they should leave the video function on. 
If members will be absent for a significant period or depart to 
join a different proceeding, they should exit the software 
platform entirely and then rejoin it if they return.
    Members may use the software platform's chat feature to 
communicate with staff regarding technical or logistical 
support issues only.
    Finally, I have designated a committee staff member to, if 
necessary, mute unrecognized members' microphones to cancel any 
inadvertent background noise that may disrupt the proceeding.
    So as I mentioned up front, the purpose of hearing is on 
``The Role of Allies and Partners in U.S. Military Strategy and 
Operations.'' We have three witnesses who will testify and then 
take our questions, all of whom, as I mentioned, are 
participating remotely. So they will be on the screens in front 
of you.
    We have the Honorable Christine Wormuth, Director, 
International Security and Defense Policy Center for the RAND 
Corporation; Lieutenant General Ben Hodges, retired, Center for 
European Policy Analysis and former Commanding General, U.S. 
Army Europe; and Mr. Elbridge Colby, principal and co-founder 
of The Marathon Initiative.
    I think this is an enormously important topic and one I 
know many members of this committee have worked on for quite 
some time.
    It is incredibly important that we build the strongest 
possible alliances that we can, that we form partnerships and 
friendships wherever we can to help us achieve our goals, 
because as has been pointed out in this committee by both 
members and DOD [Department of Defense] witnesses, as well as 
others testifying, we face an incredibly complex series of 
threats, from a rising China to belligerent Russia, Iran, North 
Korea, transnational terrorist groups.
    It is a very complicated threat matrix and one which, I 
would submit, we cannot possibly meet on our own. We are going 
to need friends. We are going to need partners.
    Now, the good news in all of this is we have about at least 
75 years' worth of developing those partnerships that have been 
robust and very successful for us, NATO [North Atlantic Treaty 
Organization] being the most obvious. But we have very strong 
partnerships with South Korea and Japan and others in the Asian 
region.
    We have built these partnerships, and they have been to our 
benefit, most notably immediately following 9/11 when NATO 
stepped up and defended us. And in Afghanistan today we are 
getting to the point where our partners are actually going to 
have more military forces on the ground in Afghanistan than we 
do.
    These partnerships have undeniably worked. And when you 
look at the National Defense Strategy, partnerships and 
alliances are a cornerstone of that strategy. We need to figure 
out how to build and strengthen those partnerships as we look 
to meet the challenges that we face globally.
    And going forward, we can't take that for granted. It is a 
constantly shifting and changing world. Allies have their own 
interests and their own pursuits. We need to work at it if we 
are going build those partnerships.
    Now, I believe that the United States military can be an 
important part of working those partnerships and developing 
them. Certainly we need to use the other tools in our toolbox, 
diplomacy, development, the use of the State Department.
    But as I have traveled the world, one thing that is 
notable: people really appreciate the support of the U.S. 
military. The partnerships that we build certainly help us in 
meeting our national security objectives, but they also develop 
more sustainable and long-term relationships in Africa and Asia 
and Europe and elsewhere. So I think the military needs to be 
part of working together on those partnerships. I think it is 
crucially important that we look at it that way.
    And I will say I don't think an ``American First'' 
philosophy actually achieves our interests. It really doesn't 
get America what it really wants. If we tell the rest of the 
world that we are in it for ourselves and we have no interest 
in working with them or even concerning ourselves with their 
objectives, in the long run it undermines our credibility.
    And that is the last point that I want to make. The 
President frequently talks about how the partnerships and 
alliances that we have had across the world are not to our 
benefit. He makes it clear that he thinks that the rest of the 
world is sort of a free rider on our largess and what we have 
done for them.
    I don't agree with that. No country in the world has 
benefited more from the global stability, peace, and prosperity 
of the last 75 years than the United States of America. Those 
partnerships may be helping South Korea, for instance, prevent 
a war on the Korean Peninsula, prevent being invaded by North 
Korea. They may be helping Japan and Taiwan protect themselves 
against China or Europe protect themselves against Russia. But 
they are also helping us because they are giving us a stable 
world. And as the most prosperous country in the history of the 
world, we benefit from that more than anybody else.
    I believe these partnerships have been of mutual benefit, 
and I think it is enormously important that we maintain them, 
strengthen them, and look for opportunities to build new 
partnerships where possible.
    And with that, I will yield to the ranking member for any 
open statement he has.

      STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
 REPRESENTATIVE FROM TEXAS, RANKING MEMBER, COMMITTEE ON ARMED 
                            SERVICES

    Mr. Thornberry. Thank you, Mr. Chairman.
    I want to join in welcoming and thanking our witnesses, and 
to thank you for having a hearing on what I agree is such an 
important topic.
    As Ms. Wormuth says in her statement, these alliances and 
partnerships give us a unique comparative advantage. And I know 
that General Dunford, when he was Chairman of the Joint Chiefs 
of Staff, would make that point repeatedly as well. Ms. Wormuth 
goes on to say, ``they are the backbone of the international 
order that has ensured relative peace and security since the 
end of World War II.''
    I think that is right. Yet in both political parties there 
are doubts and questions and maybe even attacks on these 
alliances and partnerships that have been so successful since 
the end of World War II.
    So I think it is very important for us to remind ourselves 
and examine the benefits that the United States has received in 
the last 75 years through this network of alliances and 
partnerships, but also see how they need to be adjusted to meet 
the needs of today and also tomorrow.
    Of course, in thinking about World War II and alliances, I 
can't resist a couple of Churchill quotes. In a secret session 
in 1942 he said, ``in working with Allies, it sometimes happens 
that they develop opinions of their own.''
    Well, that may be part of the challenge of working with 
allies. Our allies sometimes develop opinions of their own. We 
don't always perhaps give those opinions the respect they 
deserve.
    Later, just about a month before the war ended in 1945, 
Churchill said, ``there is only one thing worse than fighting 
with allies, and that is fighting without them.''
    Well, I hope the United States never finds itself in that 
position again.
    Thank you.
    The Chairman. Thank you very much.
    And we will now go to our witnesses, who I am counting on 
the system to magically appear on the screen. We are going to 
start with the Honorable Christine Wormuth.
    You are recognized.

 STATEMENT OF HON. CHRISTINE WORMUTH, DIRECTOR, INTERNATIONAL 
      SECURITY AND DEFENSE POLICY CENTER, RAND CORPORATION

    Ms. Wormuth. Thank you, Chairman Smith, Ranking Member 
Thornberry, and members of the committee. It is a pleasure to 
be here and see you all again, even if it is just remotely.
    As powerful as the United States is as a nation, our allies 
and partners around the world are critical elements of our 
National Security Strategy, as you all have indicated.
    Particularly in an era of great power competition, the 
network of alliances and partnerships we have developed over 
the last 75 years provides us a unique comparative advantage.
    The U.S. and its allies share intelligence, train and 
exercise side by side, and operate compatible weapon systems on 
a daily basis, coming together to create combined capabilities 
that far exceed what we could bring to bear on our own.
    Chairman Smith spoke to the value our allies and partners 
have brought to us in the past. Today in Europe we are working 
closely with our NATO allies to deter Russia, while at the same 
time guarding against internal threats to freedom driven by 
ethno-nationalism and illiberalism.
    In Asia, our alliances with Australia, New Zealand, Japan, 
South Korea, and our partnerships with many others in the 
region strengthen our ability to confront a range of threats, 
whether it is North Korea's growing nuclear weapons and missile 
programs, China's military buildup and sweeping territorial 
claims, or the continuing threat of violent extremism.
    It has become almost a cliche to say that the United Sates 
is at a strategic inflection point or even facing the end of 
the world order as we know it. Whatever you call it, the 
country is facing now significant challenges ahead, most 
prominently competing successfully against a rising China while 
reducing the risks of war with Beijing.
    This is going to require us to change our national security 
approach, a challenging assignment under any circumstances, but 
it will be all the more difficult because of the inevitable 
downward budgetary pressure on national security institutions 
that is coming and the many other difficult domestic problems 
that are going to compete for policymakers' time and attention.
    Allies and partners remain critically important to this 
changing landscape, but we need to adapt and strengthen our 
network to better position us for the future. The U.S. needs to 
shore up deterrence in Europe and Asia, while at the same time 
carefully reducing its military footprint in the Middle East, 
without creating more insecurity there.
    Going forward, we also need our allies and partners to do 
more for themselves, as well as more with the United States, in 
some cases. We need our NATO allies to continue to spend more 
on defense and to make good on their pledges to do so by 2024. 
We need our allies and partners to continue working with us, 
whether it is in the Middle East as part of the maritime 
coalition to interdict weapon shipments to the Houthis, or in 
the South China Sea, where Australia and Japan have joined with 
the U.S. to conduct freedom of navigation operations and to 
conduct naval exercises.
    Developing a comprehensive plan to adapt and revitalize our 
networks and alliances is an essential component of a broader 
strategy for great power competition and a homework assignment 
that is going to take many years.
    It is also an area where DOD needs help from Congress. DOD 
is going to have to make difficult decisions about the kinds of 
weapon systems it buys, how it is postured overseas, and what 
kinds of capabilities it is willing to sell--or not sell--to 
allies and friends.
    Congress is involved in all of these decisions, and without 
congressional support for the tough calls ahead it is going be 
much harder to make the strategic adjustments we so clearly 
need to undertake.
    America's network of alliances has served us well, but we 
can't take these relationships for granted. Alliances are like 
gardens: they don't grow overnight, you have to tend to them or 
they wither if you neglect them.
    While the current national strategy emphasizes the 
importance of allies, I am concerned that a widening gap has 
emerged between our rhetoric and the actions the United States 
has taken in some cases with our closest friends and allies. 
The U.S. commitment to NATO's Article 5 security guarantee has 
repeatedly been called into question. Washington has accused 
our European allies of taking us for granted, and President 
Trump has seemed to contemplate possibly withdrawing from NATO 
altogether.
    The decision to withdraw as many as 12,000 troops from 
Germany has been publicly messaged as a punishment and makes 
little strategic sense in today's environment. The abrupt 
decision to withdraw troops from Syria took our allies and 
friends by surprise and left them wondering when we could be 
counted on.
    The U.S. and its allies need each other now more than ever. 
Increasing friction and uncertainty in our relationship can 
result in negative consequences. A survey released last week 
showed favorable views of the United States in several 
democratic countries is at an all-time low.
    Ultimately, shared interests and concerns over common 
threats lie at the heart of strong alliances, but nations and 
their leaders, as Ranking Member Thornberry said, must balance 
many competing demands and pressures to govern, so it is rare 
that we will always agree.
    In closing, sustaining alliances requires persuasion, 
consultation, an ability to listen, and a willingness to 
compromise. If we don't do a better job tending our gardens, we 
may find ourselves with friends who are unwilling to take on 
the hard work that we need in the days ahead.
    Thank you.
    [The prepared statement of Ms. Wormuth can be found in the 
Appendix on page 49.]
    The Chairman. Thank you. It was a little broken up there, 
but I think we, by and large, heard everything in that. I hope 
the future connections here are better.
    General Hodges, you are up now and you are recognized.

 STATEMENT OF LTG BEN HODGES, USA (RET.), CENTER FOR EUROPEAN 
 POLICY ANALYSIS, FORMER COMMANDING GENERAL, U.S. ARMY EUROPE 
                          (2014-2017)

    General Hodges. Chairman Smith, Ranking Member Thornberry, 
thank you for the opportunity to appear before you today.
    I would like to address three specific topics in my opening 
statement: U.S. capabilities in Europe, the importance of the 
Black Sea region, and the importance of our relationship with 
Turkey.
    U.S. strategic interests are shifting increasingly towards 
the Indo-Pacific region, but the relationship with Europe 
remains vital to American security and prosperity, which in 
turn depends in large part on European security and prosperity. 
We need allies for support around the world, and our best and 
most reliable allies come from Europe, as well as Canada and 
Australia. NATO, the most successful alliance in the history of 
the world, is an essential element of U.S. security efforts in 
Europe, the Middle East, and Africa.
    The current U.S. posture in Europe is understandably 
significantly less than what it was at the height of the Cold 
War. But given the security environment now, it is too small 
and without depth. In order to carry out U.S. strategy in 
Europe, Africa, and the Middle East, we depend on continuous 
deployments of rotational regular and reserve air, land, and 
naval forces to augment the relatively small U.S. military 
capabilities forward-based in Europe.
    The decision to withdraw 12,500 soldiers and airmen from 
Germany, as described on 29 July by the Pentagon, is a mistake 
in my view. The administration's decision was not the result of 
strategic analysis or a coordinated interagency process. It 
appears that the planning will take months, and the execution 
will take years. My estimate is that what actually ends up 
happening will probably bear little resemblance to what was 
initially briefed.
    Russia has not improved its behavior anywhere, and in the 
face of that we would be reducing capabilities essential to 
effective deterrence, rapid reinforcement, and operations in 
Europe, Africa, and the Middle East.
    My sense is that the plan as briefed will have a negative 
impact on readiness. But there are smart professionals in the 
Pentagon and in the various headquarters in Germany who will 
lay out the challenges and risks and try to come up with means 
to mitigate those risks and a timeline in which to do it.
    NATO is still capable of effective deterrence. The combined 
militaries of 30 allies, plus partners in Europe, represent 
significant potential combat power and are a key component of 
effective deterrence.
    However, I do believe that there are potential 
vulnerabilities which undermine NATO deterrence along its 
eastern flank. Those include, number one, a perceived lack of 
cohesion which could lead to miscalculation by the Kremlin, 
inadequate readiness levels of some allies, inadequate 
integration of air and missile defense capabilities, and 
shortfalls in military mobility.
    The second point of emphasis regards the strategic 
importance of the greater Black Sea region. I believe that 
great power competition prevents great power conflict. Failure 
to compete and to demonstrate interests and a willingness to 
protect those interests, in all domains, can lead to power 
vacuums and miscalculations, which can in turn lead to 
escalation of tensions and then to actual conflicts.
    This is particularly true in the greater Black Sea region 
where Russia is attempting to maintain its sphere of influence. 
The Black Sea region should be the place where the United 
States and our NATO allies and partners hold the line.
    The Black Sea should matter to the West in part because it 
matters to the Kremlin. Taking the initiative away from the 
Kremlin, denying it the ability to support the Assad regime in 
Syria and launch operations into Libya, will reduce the flow of 
refugees into Europe, what General Breedlove called the 
weaponization of refugees, and limit the Kremlin's ability to 
spread its corrosive influence in the Balkans, the Caucasus, 
the Middle East, North Africa.
    We need to change the rules of the game, develop our own 
approach to hybrid warfare, and shape events by using all the 
tools of national and alliance power, including diplomacy, 
private investment, as well as the military, instead of always 
reacting to Kremlin initiatives.
    Finally, my third point of emphasis: It is time for Turkey-
USA 2.0. We must repair the relations between Turkey and the 
United States and see Turkey as an essential but exposed ally 
that is at the crossroads of several regions and challenges.
    Turkey is essential for deterrence of the Kremlin in the 
Black Sea region, and it is a critical bulwark against ISIS 
[Islamic State of Iraq and Syria] and Iran. Protecting this 
relationship should be a priority.
    Nor do I condone or excuse several mistakes or bad choices 
by the Turkish government. They are at times a very difficult 
lot. But we must think long term. The current Turkish 
administration will eventually change, but the strategically 
important geography of Turkey will never change.
    We need to reframe the relationship from its Cold War 
structures. The current boundaries between U.S. European 
Command and U.S. Central Command, and the Department of State 
regional boundaries, currently align with the Turkish-Syrian 
border. Perhaps we can find something that is more mindful of 
Turkey's strategic situation and which would improve our own 
strategic thinking.
    In order to start rebuilding trust with Turkey, we should 
respect Turkish concerns about providing weapons to the YPG 
[People's Protection Units]. We should recognize that Turkey is 
on the front line of the Middle East refugee crisis with more 
than 3.5 million refugees in Turkey along the Syrian border. We 
should offer Turkey a way out from its misguided S-400 purchase 
from Russia. We should resolve the Turkey-Greece issues in the 
eastern Mediterranean.
    If the U.S. is not willing to make this effort, then we 
should put our full weight behind Germany or the U.K. [United 
Kingdom] to do it. Only the Kremlin benefits if two NATO allies 
are in conflict with each other.
    Mr. Chairman, thank you. I look forward to your questions.
    [The prepared statement of General Hodges can be found in 
the Appendix on page 61.]
    The Chairman. Thank you very much.
    And up next we have Mr. Colby.
    Mr. Colby, you are recognized to give your opening 
statement.

  STATEMENT OF ELBRIDGE COLBY, PRINCIPAL AND CO-FOUNDER, THE 
                      MARATHON INITIATIVE

    Mr. Colby. Thank you, Mr. Chairman, Ranking Member 
Thornberry, and distinguished members of this committee, for 
the invitation to appear before you. It is a great honor to 
testify before this body on a topic of the highest importance 
to our Nation.
    Allies and partners are absolutely essential for the United 
States in a world increasingly defined by great power 
competition, above all with China. Indeed, they lie at the very 
heart of the right U.S. strategy for this era, which I believe 
the Department of Defense's 2018 National Defense Strategy lays 
out.
    The importance to the United States of allies and partners 
is not a platitude. To the contrary. For the first time since 
the 19th century, the United States is not far and away the 
world's largest economy. More than anything else, this is due 
to the rise of China, and as has become very evident, Beijing 
is increasingly using its growing power for coercive purposes.
    At the same time, the United States faces a range of other 
potential threats, including primarily from Russia against 
NATO, as well as from transnational terrorists, Iran, and North 
Korea.
    In other words, there exist multiple challenges to U.S. 
national security interests, but given their breadth and scope, 
America can no longer expect to take care of them essentially 
alone. Accordingly, we must address this widening shortfall 
between the threats we face and the resources we have to deal 
with them by a much greater role for allies and partners.
    Precisely because of this, the NDS [National Defense 
Strategy] identifies a new approach to U.S. allies and partners 
as its critical second line of effort. This new approach is not 
simply a restatement that allies and partners are important and 
valued, as appropriate as that may be. Rather it is a call for 
a new logic for dealing with them.
    This new approach proceeds in the NDS's revised strategic 
perspective. Because of China's power and wealth, the United 
States simply must play a leading role in blocking Beijing's 
pursuit of hegemony in Asia. This means that the U.S. defense 
establishment must prioritize dealing with China and Asia, and 
particularly on defending vulnerable allies and partners, such 
as Taiwan and the Philippines.
    Given the high demands of this requirement, it will have to 
consume an increasing portion of U.S. defense effort and 
attention. In particular, we will not be able to dedicate the 
level of resources and effort to the Middle East and Europe 
that we have in the past. We will therefore need allies and 
partners to do their part, not just to help defend our 
interests and enable a concentration on Asia, but to defend 
themselves and their interests.
    So the question is how. Let me lay out three points in this 
respect.
    First, the United States should seek to add new partners 
and, where necessary, allies. Washington should seek to add 
them to address a particular mismatch between where the 
contemporary dangers to our interests present themselves and 
the threat perceptions of most of our established allies. The 
contemporary threats to the U.S. interests stem from China 
across Asia, transnational terrorists largely in the Middle 
East, Russia and Eastern Europe, the Persian Gulf area, and 
North Korea and Asia.
    Yet the United States traditional closest and most 
significant allies are largely clustered in Western Europe and 
Northeast Asia. Many of these countries, especially in Europe, 
feel quite secure and are little motivated to contribute to 
more distant threats. This leaves wide areas, such as South and 
Southeast Asia and the Middle East, for which longstanding U.S. 
alliances are of minimal help. The natural way to rectify this 
is for the United States to add partners and, where necessary, 
alliances to help address these gaps.
    Fortunately there is plenty of opportunity to do so, 
because many countries that are not our traditional close 
allies share our interest in checking Chinese bid for hegemony 
in Asia, resisting Russian or Iranian aggression, or combating 
transnational terrorism. Facing these threats more acutely than 
do our long established allies, these countries are highly 
motivated to do something about the problem.
    In this effort, though, we should be very careful to 
distinguish between expanding our formal alliances or quasi-
alliances from expanding our partnerships. The former should be 
approached conservatively, while the latter can be approached 
more liberally. When we extend an alliance commitment or 
something tantamount to it, as in the case of Taiwan, we tie 
our credibility to that nation's fate. We should, therefore, be 
chary about doing so.
    In light of this, we should seek to expand our partnerships 
wherever possible. In particular, we should focus on increasing 
them in South and Southeast Asia and the Pacific Islands, where 
China otherwise might have an open field to suborn states and 
add them to its pro-hegemonial coalition.
    I do not see a near-term need to add any allies to the U.S. 
roster, but I do think we will increasingly need to consider 
this as the shadow of Chinese power darkens over the region.
    Further, our effort to expand our network of allies and 
partners should primarily be focused on states with shared 
threat perceptions. It has become something of a commonplace 
that shared values form the bedrock of our alliances. It is 
true that such values help bind allies, but the most useful 
alliances generally proceed from shared fears.
    The best motivator to fight is self-defense. Thus, states 
that have a shared interest in preventing Chinese or Russian or 
Iranian hegemony themselves have a natural alignment with our 
own interests. This is true whether or not they are 
democracies.
    Second, given the scale of challenges we face, the United 
States should encourage allies and partners to assume a greater 
role in handling shared security challenges. This is, of 
course, a burden-sharing problem and it is a difficult one.
    I do not think there is a neat solution to the burden-
sharing quandary. The fact is that most countries can only do 
so much if they do not feel directly threatened by an 
adversary. My view is that we should work with this reality 
rather than vainly try to alter it.
    Accordingly, we should focus on urging countries to 
increase their efforts where they will be able to generate 
sufficient political will to make an effective contribution to 
shared interests.
    In Asia, given the scale of the threat posed by Beijing, we 
should concentrate most of our allies, like Japan, South Korea, 
the Philippines, and Taiwan, on readying to defend themselves 
alongside U.S. Armed Forces and provide access to U.S. forces 
in the event of a contingency.
    Meanwhile, we should assist partners like Vietnam, 
Singapore, Indonesia, and Malaysia with whatever means 
available to enable their defense against an ever more powerful 
China, while concurrently seeking better access and logistic 
support for U.S. and other allied forces.
    In the Middle East, the United States should urge Israel 
and Washington's Arab partner to take a greater role in 
containing Iran and combating transnational terrorism.
    In Europe, finally, the overall U.S. goal should be, while 
preserving the fundamental U.S. commitment to NATO's defense, 
to have Europeans, especially Northern and Eastern Europe, 
shoulder more of the burden of defending the alliance from 
Russian assault.
    The reality is that, given the stakes and consequences, the 
United States must prioritize Asia. The United States must 
therefore economize in its second theater, Europe. The main 
challenge to this revised model in Europe is Germany. The 
simple fact is that, given its size and wealth, Germany's role 
is critical. They can and should do much more for NATO European 
defense.
    Finally, the United States should act to make this 
invigorated network of allies and partners more effective. In 
this light we should seek to integrate our own force 
development posture and war planning processes as much as 
possible with allies like Japan, Australia, the United Kingdom, 
and select others relevant to key scenarios.
    The goal here should be to make sure our collective efforts 
are as efficient as possible, reducing duplication, and getting 
the most out of our efforts and money.
    At the same time, we should seek whatever possible to 
strengthen important partners in their ability to resist 
China's coercion or aggression, or otherwise contribute to 
shared goals.
    Congress has already done much on this front, but we should 
intensify the use of arms sales, technology transfers, and 
related military and intelligence tools to build up states like 
India, Vietnam, and other South and Southeast Asian states.
    In this vein, though, we must fundamentally move away from 
using these tools as leverage over key partners for domestic 
political reform over secondary geopolitical objectives. The 
United States should always, of course, stand proudly for free 
government that treats its people with dignity.
    We must keep our eye on the prize, though. China is the 
primary challenge to our interests in the world, including our 
interest in free government, both at home and abroad. Our top 
priority must, therefore, be to block its gaining predominance 
in Asia, which is a very real prospect. This means 
strengthening states in the region against Chinese power, 
whether or not they are model democracies.
    In closing, this new approach to allies and partners will 
involve uncomfortable changes, hard decisions and compromises, 
as well as some friction with them. But the truth is that we 
are much stronger with allies and partners, and our power is 
magnified when we effectively align our efforts.
    Done right, the end result will be a more powerful, 
equitable, and sustainable coalition of states, together 
standing up for the kind of world Americans want and need to be 
secure, free, and prosperous.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Mr. Colby can be found in the 
Appendix on page 73.]
    The Chairman. Thank you.
    We will now move to questions. We will take members in 
order. The members in the audience can come forward when they 
are called and take a seat at the desk on the right and the 
left there.
    I am not sure when votes are going to happen. It would be 
my intention to continue the hearing through votes, since we 
have roughly 40, 45 minutes of a vote. We can have the member 
who is asking the question can stay here, and I think we can 
shuffle back and forth reasonably well to avoid any conflict 
there. So we will keep going through votes is the plan.
    With that, Mr. Colby, I will start with you, building off 
of what you said at the end there, and I think you perfectly 
outlined the main area where alliances are so important in Asia 
and the reason for it, because of China.
    You mentioned arm sales as one way to build those 
alliances. What are some of the other key steps, and not just 
within the military realm? I think you very correctly outlined 
the countries, particularly in some cases the island nations in 
the South Pacific.
    What can we do, what should we do, either diplomatically, 
through aid, through policies? What is going to make those 
countries want to ally with us and not China? What are those 
key steps beyond, I think, as I said, I think you mentioned arm 
sales? What else should be in our toolbox when we look at how 
to deal with China by building those alliances?
    Mr. Colby. Thank you, Mr. Chairman. I appreciate your 
words.
    I think it is definitely a whole-of-government approach. 
So, I mean, I think the economic and diplomatic pieces are 
obviously going to be vital.
    Arm sales are part of it, but I think the signal of 
political involvement and commitment as commensurate with what 
those states can sort of process is also appropriate. I think 
the administration's clarification of the Mutual Defense Treaty 
to Manila, that it applies to the South China Sea, and by 
stating our rejection of China's claims in the South China Sea 
more forthrightly, are evidences of resolve.
    I mean, I think fundamentally we have an alignment of 
interests because most of the states, certainly the more 
powerful states in the region, like Vietnam, Indonesia, et 
cetera, do not want to be dominated by China. They don't want 
to be put on the spot, but I think whatever we can do to 
empower them, and as I think you were suggesting, sir, the 
economic piece of this is really important.
    So here I commend, for instance, what the Japanese and the 
Koreans, for instance, have been doing to invest more. I think 
Congress played a very important role with the pull back. But, 
as you say, I think it is--or indicate--I think it is a whole-
of-government approach.
    The Chairman. Understood. And I think the other key point 
that you made there was basically saying we need to stay 
focused on the importance of those alliances because of China. 
And, obviously, the conflict we always run into there is with 
our values, with human rights, with democracy.
    And just a couple of examples of that. I am curious how you 
think we should handle it. Obviously, with the Philippines we 
have problems with Duterte and the way he is doing criminal 
justice amongst other things. So we have got that. You know, 
with India, India is still doing arm sales back and forth with 
Russia. We have seen that problem with Turkey as well.
    Is it possible to get a little more specific about when 
should we just say, look, we are not going to worry about your 
domestic politics, we want to build the alliance, however 
possible? How would we deal with extreme human rights abuses as 
are alleged in the Philippines in terms of extrajudicial 
killings or in the case of India and, of course, we are dealing 
with this with Turkey and Europe as well, is doing the arm 
sales with Russia? Should we significantly back off on our sort 
of sanctions policy for those things, and if so, how do we 
signal that without undermining our credibility?
    Mr. Colby. Well, sir, I think you have put your finger on 
it. I mean, it is a very difficult problem and I don't want to 
simplify it.
    I mean, I think my inclination would be that our benefit 
is--we benefit as much as possible from their ability to defend 
themselves from these coercions, particularly military 
coercion. So I would tend to air-gap those kinds of 
capabilities, for instance, in thinking about domestic, 
political, or human rights abuses or engagements with Russia.
    I also think, and, I mean, others would know more about 
this, but, I mean, I think if you look at some of the best 
examples of improvements on human rights, say, in the Cold War, 
it was often from a sort of a close position.
    I mean, I think if you look, for instance, at the pressure 
on Taiwan or South Korea, I think in the case of the 
Philippines as well, it was often from a place where they felt 
quite confident in our having their backs in terms of the kind 
of fundamental external threats, but also the ability to put 
pressure in an appropriate way sort of more privately. And I 
guess that would be one thing.
    I mean, I would say I think private pressure, as I think 
this was President Reagan's view and Secretary Shultz, that can 
be very effective. And also maybe being--thinking ourselves, 
and I don't pretend to have the answer, but it is one thing 
to--or maybe think more narrowly about what are the kinds of 
abuses that we particularly want to focus on in terms of 
holding up the sort of crown jewels of arm sales and so forth, 
versus sort of other things like improvement on democratic 
[inaudible], these kinds of things that we may be able to hold 
off a bit on.
    So I don't pretend to have the right answer, but I do think 
that we risk losing these countries, and the coming years are 
going to be critical, as I think you were suggesting, because 
the Chinese are so powerful and they are going to face a bit of 
a crossroads. We don't want to push them in the wrong direction 
at this critical juncture.
    The Chairman. Understood.
    I think one of the other things that we need to be careful 
about is perhaps our rhetoric and the expectations that we set. 
I think a lot of times, and this has happened in Democratic and 
Republican administrations, admittedly not so much in this one, 
is if our rhetoric is we will stand up for human rights, we 
will protect anybody in the world, and then our actions don't 
match that rhetoric, that undermines our credibility.
    I think we should state more clearly up front the modest 
goals. We have a modest ability to force other countries to act 
in certain ways. I think we would be better served to 
acknowledge that and then the pragmatic nature of the approach 
that we will have to take.
    That is all I have. I will say, as we are asking questions, 
given the fact that it is virtual, it is really kind of 
important for the people asking the questions to direct it to 
one of our specific witnesses so that we know who to pull up on 
the screen and all that as we work through it.
    With that, I will yield to Mr. Thornberry.
    Mr. Thornberry. Mr. Colby, let me just inquire about 
another facet of what you were just discussing, because this 
has proven to be a troublesome problem for the United States in 
the past.
    I am thinking, in addition to arm sales and the things you 
and the chairman were talking about, military training and 
exchanges. We have a law that says we cannot do training 
sometimes for a whole unit that has been accused of certain 
human rights violations.
    And in my experience a lot of countries desire most some 
sort of training exchanges with our military, the kinds of 
countries we would like to make closer partnerships with, and 
yet our own law prevents us from having that sort of thing. We 
have had terrible fights in Congress for years about a military 
training facility devoted to South and Central America, as 
another example. The chairman mentioned the Philippines.
    Help us think through. I mean, you were doing that with the 
chairman, kind of the pluses and minuses. But when it comes to 
military training, other sorts of contact with our military, 
how does that apply in our desire to form greater partnerships 
with countries that may not be our idea of an ideal democracy?
    Mr. Colby. Well, sir, I fully agree with you, and thank you 
for raising the training point.
    I would say, I mean, if we think about the scale of the 
military threat posed by the PRC [People's Republic of China] 
today and going forward, and I think within the next decade or 
so we will be thinking about the Philippines and South Korea 
and states in Southeast Asia as potential scenarios, given 
where the 2020 military defense or the military power report on 
China is saying, we need to start thinking about this now.
    You know, I think training is a critical part because in a 
sense what we are going to need to do to leverage this greater 
power of this network, you know, allies, partners, whatever 
their role, is going to be interoperability, the ability to 
work to different standards, to communicate with each other. 
That is partially a technical problem and an equipment problem, 
but a lot of it is human training and an external 
organizational issue.
    You know, Taiwan, I think I am very enthusiastic about the 
arm sales to Taiwan, and I know one was recently reported, I 
hope it goes through, because it is the kind of equipment that 
we want to see, this kind of, you know, A2/AD [anti-access/area 
denial] denial kind of capabilities to Taiwan.
    But actually where I think, you know, would be really 
valuable to move forward with them, and that is obviously a 
sensitive issue, but I think this would be within the context 
of our traditional policy, would personally be on training. And 
that is something we could think about with Vietnam as well. 
Obviously, the Indians have a very sophisticated military, but 
there may be something we can offer there, too.
    So I think that is a real sort of force multiplier, sir.
    Mr. Thornberry. General Hodges, let me just pursue this a 
little bit with regard to Turkey, which you specifically 
mentioned.
    I think your broad points, Turkey's geography, history, 
critical role is always going to be important, is certainly 
valid. And yet not only are there human rights and governance 
issues, the current leader of Turkey has policies that 
contradict in many ways the best interests of the United 
States.
    So take that specific example. We don't want to make 
enemies of Turkey forever. But yet what do we do now to 
preserve that future when there is a different government but 
yet make clear or in some way help guide them on a better 
policy path?
    General Hodges. Thank you, Mr. Thornberry.
    Well, first of all, Turkey is a maddening ally. I was 
stationed in Izmir for 2 years. So I personally experienced 
what it was like there. But yet at the end of the day I cannot 
imagine our alliance without Turkey, and so that has got to 
guide our actions.
    I think that part of the problem is, you know, for decades 
the boundary between Central Command and European Command has 
aligned with the border between Turkey and Syria. And when you 
think about the situation in the region right now, we would 
never put the border, the boundary right there if we were 
starting with a blank sheet of paper. And because Central 
Command has been the main effort theater for the last 20 years, 
what Central Command's priorities were would typically drive 
the thinking.
    And so I think, for example, we made a strategic error by 
giving weapons to the YPG. There were benefits to it at a 
tactical level but the YPG--excuse me--ISIS was never going to 
be an existential threat to the United States or even to any 
European countries. And so we have risked a very important 
strategic partnership for what I think are tactical benefits.
    So my point is how we have Turkey on the map, every NATO 
map Turkey is at the bottom right-hand corner, and the thinking 
is dominated by what is south of that border. I think that is 
part of it.
    The second part is rebuilding trust. Turkey has a very 
unfortunate or bad history with Russia. I think they are 0-for-
12 or 1-in-12 in their wars with Russia, and right now they 
have no confidence that the West will stick with them.
    Again, I am not excusing President Erdogan's policies, 
which are very, very bad for the people of Turkey. But when we 
are thinking about strategic calculation, what is in our best 
interest? And I think that we have got to continue to try and 
reestablish trust with them, as well as hold them accountable 
in the different ways that the U.S. Government is still able to 
do.
    Mr. Thornberry. And I think figuring that out is the 
challenge.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mrs. Davis is recognized for 5 minutes.
    Mrs. Davis. Thank you, Mr. Chairman. I appreciate your all 
being here.
    You know, I know that, Mr. Colby, you spoke of how we need 
allies and partners to do their part. And I want to ask you and 
Ms. Wormuth to weigh in as well. What do you think the 
appropriate cost share for our allies should be versus the 
benefits gained through those alliances? Can you be as specific 
as possible?
    Mr. Colby. Certainly. Congresswoman, I wouldn't be able to 
give you a dollar figure, but I think, I mean, I think 
fundamentally, if I was going to be sort of candid about it, I 
would say that Japan should strive to look more like what West 
Germany looked like in the Cold War, which is not exactly the 
figure but a considerably higher proportion of defense spending 
largely focused on territorial defense. There may be other 
scenarios in the Western Pacific than the Japanese, as I 
mentioned, Taiwan should be prepared to help with, but largely 
focused on maintaining the integrity of the Japanese 
archipelago.
    I think in Europe we have a standard, which is 2 percent, 
which we should stick to. You know, obviously, there is always 
reason to critique it.
    But, I mean, fundamentally I think the reality is that the 
United States military is not large enough and almost certainly 
not large enough to fight two simultaneous wars against both 
China and Russia, and because China is a priority, that means 
Europe has to be prepared to do more, certainly until U.S. 
forces can prudently be swung.
    But I think, you know, we do have examples of allies like 
Poland and actually South Korea spends a pretty solid 
proportion of GDP [gross domestic product]. Taiwan is making 
significant efforts to increase its defense spending. And 
actually a number of our partners do very well, I mean, 
Finland, India, Vietnam. I think something a little bit more 
like that is kind of what we are looking for.
    Mrs. Davis. Ms. Wormuth, did you want to weigh in on that?
    Ms. Wormuth. Yes, and I am hoping you-all can hear me a 
little bit better this time.
    I would agree with everything that Mr. Colby just said and 
add maybe a few thoughts.
    I think, again, it is very important that the European 
members of NATO continue to make progress towards the 2 percent 
GDP pledge in 2024. But I think we oversimplify and sort of 
focus in a myopic way on that 2 percent number. As important as 
how much countries are spending is what they are spending that 
money on.
    So I am as interested as seeing Germany, for example, go 
from, I think, about 1.2 percent of GDP to the 2 percent mark, 
but I am also focused on are they spending that defense money 
on the right kind of capabilities that we need to be able to 
deter Russia, for example.
    I would also add that in addition to the----
    Mrs. Davis. Can I ask you--I was just going ask you, when 
we have tried to intervene in that area and be, I guess, more 
forceful in terms what we are looking for, what kind of results 
have we had?
    Ms. Wormuth. Well, I think in my experience the German 
military and many in the Ministry of Defense are very 
sympathetic, frankly, to the calls from the United States to 
invest more. I think they see the challenges that Russia poses, 
they see the reality of that, and they want their own country 
to be able to do more.
    But Germany, like all countries, like our own country, its 
leaders are trying to balance a range of competing pressures. 
They are looking at their domestic issues. They are looking at 
the economic effects of the pandemic on their country. And so 
they are sort of looking at a broader array of things and 
making judgements about how to allocate their overall national 
resources.
    So there is work to be done, and I really think Germany in 
particular needs to step up.
    But I would also say that, beyond just defense spending, 
alliances, countries that are part of the alliances with the 
United States and who have partnerships with us bring other 
things to the table as well.
    So, for example, while Germany may not be doing as much as 
I would like on defense, they are taking real pain in terms of 
the economic sanctions against Russia. Similarly, you see 
countries in Asia who are part of the sanctions regime against 
North Korea.
    So I think basing access, willingness to sort of take 
economic losses as part of sanctions regimes, are important 
contributions to our alliances as well.
    Mrs. Davis. Thank you very much.
    I wanted to ask General Hodges really quickly, I mean, what 
is one thing you learned at the Department of Defense about the 
role of alliances and how to achieve U.S. national security? 
Can you give us one thing? You have about one----
    The Chairman. It is going to have to be real quick, because 
she is out of time. If you can do it in 5 seconds, go ahead.
    General Hodges. We lose without allies.
    The Chairman. I am sorry. I missed that.
    General Hodges. We lose without allies.
    The Chairman. Thank you.
    Mrs. Davis. Thank you.
    The Chairman. The gentlelady's time has expired.
    Mr. Wilson is recognized for 5 minutes.
    Mr. Wilson. Thank you, Mr. Chairman. And thank you for 
calling this hearing in regard to our allies and partners.
    In the last year I have had the remarkable opportunity to 
see the successes of President Trump around the world. I was in 
Krakow, Poland, where the people are so appreciative of the 
additional American troops being added there, in fact, the 
deterrence to Putin's aggression. Indeed, President Duda has 
indicated that the military facilities they are going to build 
for the Americans could be called Fort Trump.
    In Israel, in Jerusalem, I was grateful to be present at 
the embassy that President Trump had the courage to move to 
Jerusalem. And then we saw last week with Prime Minister 
Netanyahu the extraordinary relationship the United States has 
with the Jewish state.
    And then I had the opportunity with India to be present 
with Prime Minister Narendra Modi in New Delhi and in Houston 
where the people of India now appreciate that President Trump 
had the courage to rename Pacific Command to Indo-Pacific 
Command. They now understand what an important ally the world's 
largest democracy is to the world's oldest democracy, the 
United States.
    And then to visit in Bahrain, to see the American naval 
base there that has been so important for 70 years to provide 
security in the Middle East, and for then now Bahrain to take a 
lead in the Abraham Accords, which will bring peace and 
prosperity opportunity to the Middle East.
    And finally with Colombia, I am very grateful in South 
America the South Carolina National Guard is a State partner 
with the military of Colombia. We have never had a stronger 
relationship to deter terrorism around the world with President 
Trump.
    With that, Mr. Colby, last summer the House passed a bill 
that I co-led with Representative Ted Deutch, the U.S.-Israel 
Cooperation Enhancement and Regional Security Act. That bill 
included $3.8 billion a year in security assistance to Israel 
over the next decade. It would also provide financing to 
upgrade most of Israel's fighter aircraft, improve its ground 
forces mobility, and strengthen its military defense systems.
    What are some of the emerging threats to Israel, and how 
can we target security assistance to Israel to be effective?
    Mr. Colby. Thank you, Congressman.
    I need to consult the bill to understand it better, but it 
sounds very commendable. I think we certainly benefit. 
Essentially, the stronger Israel is, the better off we are.
    From things that have been happening the last couple 
months, the Abraham Accords and these hopefully more steps, I 
think we are seeing, hopefully, real progress in the sort of 
[inaudible] cohesion and formalization of a coalition in the 
region designed to check and really roll back Iranian pursuit 
of dominance in the area. So I think that is very encouraging.
    In terms of Israel's particular threat perceptions, I wish 
I was able to speak in great detail, but I think it seems to me 
that the primary threat they feel is largely Iran, Hezbollah, 
obviously some of the rejectionist groups.
    It seems like things are in a pretty sustainable place on 
the rejectionist front. With Hezbollah, I know they learned a 
lot of lessons. David Thompson, Christine Wormuth's colleague 
at RAND, wrote a very important study on Israel's adaptation 
that we could learn a lot from. So I would say we could learn a 
lot from the Israelis. I know [inaudible] do.
    But I would say I think build from this, as I mentioned in 
my testimony, and really encouraging and empowering regional 
partners to take a greater role. And of course that is all the 
more tenable and feasible now that they are becoming more 
cohesive.
    Mr. Wilson. Thank you very much.
    And then for General Hodges. Germany has so many important 
military facilities, and in fact the Army Corps of Engineers is 
building the largest military hospital, the Rhine Ordnance 
Barracks Army Medical Center, near Kaiserslautern, Germany, 
which is the sister city of Columbia, South Carolina, very 
important to all of us.
    But I am concerned that with the Nord Stream 2 gas pipeline 
nearing completion, what steps should be taken to limit the 
exposure of our strategic installations to this growing threat?
    General Hodges. Well, Mr. Wilson, for sure we should keep 
up the pressure on Germany to stop, to discontinue the Nord 
Stream 2 construction. I think actually the poisoning of Mr. 
Navalny has changed a lot of attitudes here in Germany about 
how it views the Kremlin. So gives some hope there.
    But I think the United States, we have got to treat Germany 
as our most important ally. Instead for the last several years 
we have been publicly [inaudible] treating them in a way that, 
I guarantee you, I live here in Frankfurt, Germany, does not 
engender any willingness to increase spending or to do the 
kinds of things that we would like. So I think we need a more 
sophisticated approach [inaudible] from the Germans.
    The Chairman. The gentleman's time has expired.
    Mr. Wilson. Thank you.
    The Chairman. Thank you.
    Mr. Langevin is recognized for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to begin by thanking our witnesses for being here 
today to discuss the very important topic of our allies. It is 
certainly an important and timely topic.
    As I see it, the United States has allies, whereas China 
has business partners, and other countries know the difference. 
And previous administrations have understood that the best time 
to make a friend is when you don't need one.
    So I would like to first ask about our efforts to make 
inroads in the South Pacific.
    Ms. Wormuth and Mr. Colby, what value would partnerships 
with small island nations play in deterring China, for example, 
from attacking Taiwan or Guam?
    And next, what role should the Department of State play in 
cultivating allies and partnerships versus the role of the 
Department of Defense? And are we striking the right balance? 
And what are the implications of getting that wrong?
    And then finally, General Hodges, as our cyber capabilities 
mature and cyber becomes increasingly important as a vast 
attack base, if you will, we will clearly need stronger cyber 
partnerships with European partners.
    Have European partners been willing to partner bilaterally 
with the U.S. on joint cyber operations? And which countries 
have the most interest in and could benefit most from U.S. 
mentorships in developing their capabilities?
    We can start with Ms. Wormuth and Mr. Colby if we have got 
time.
    Ms. Wormuth. Apologies, Congressman. It was a bit hard to 
hear you, but I think you said start with me. So I will just 
try to be very brief.
    The island nations can be quite important. As Mr. Colby 
said, we need to make adjustments to our posture in the region 
to be able to better deal with China.
    And so the announcement by Palau, for example, that it is 
willing to host U.S. airfields and bases could be quite helpful 
to us, even though they are relatively small. We do need to 
diversify our footprint and be more balanced and not so heavily 
weighted in Northeast Asia exclusively, for example.
    On the balance between the military and the Department of 
State, the Department of State has a very important role to 
play. As much as we need to have military capabilities to deter 
China, we also need to have a diplomatic effort, for example, 
to push back on their sweeping territorial claims. And the 
Department of State is essential to working with allies and 
partners to put forward diplomatic letters, for example, 
basically registering disagreement with China's sweeping 
territorial claims.
    We don't want to--I think there is a tendency, as big as 
the U.S. military is, when you are a hammer, everything looks 
like a nail. But many of the challenges China poses, the 
economic challenges, for example, are better addressed with 
nonmilitary tools. And I will stop there.
    Mr. Colby. Thank you, Mr. Langevin.
    Yeah, I agree with Ms. Wormuth that the Pacific islands are 
really critical.
    It sounds a little bit archaic, but fundamentally the 
tyranny of distance, as General Hodges would know better than 
I, is really significant in military affairs. And this is even 
more the case now that China is not just building a [inaudible] 
military, but a power projection military out beyond the first 
island chain.
    And so they will be seeking to have the ability to contest 
our power projection in the ocean, and we will need to have 
combat-credible forward forces designed to blunt a fait 
accompli or deny a China assault, say, on Taiwan, I think, sir, 
as you rightly indicated.
    But that is going to need to be supplied. It is going to 
need to be based. It is going to need to be dispersed. I think 
the Marines are thinking really at the forefront of thinking 
about this. But it is a big logistics sort of requirement, and 
that is where the Pacific islands really do come in, in great 
importance.
    So I think they sort of--it is a little bit ``Back to the 
Future,'' if you will, but I think they really are critical, 
and as Christine indicated, the Palau announcement is 
significant.
    Mr. Langevin. And, General, if you could address the cyber 
question.
    General Hodges. Yes, sir. Thank you.
    First of all, five European allies stand out as being 
leaders in cyber development and they certainly do a lot of 
work: Germany, Estonia, Latvia, Lithuania, and the United 
Kingdom. Those are five good partners.
    Cyber protection of our critical transportation 
infrastructure is essential for U.S. efforts in Europe. The 
port of Bremerhaven, for example, if that is not protected from 
a cyber strike, then we cannot bring in a single vehicle or a 
single soldier.
    So I believe cyber protection of critical transportation 
infrastructure ought to count towards 2 percent. Lithuania and 
Latvia do that now. I think Germany knows how to do this as 
well.
    Mr. Langevin. Very good. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Thank you. The gentleman's time has expired.
    Mr. Turner is recognized for 5 minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    My questions are going to be directed to General Hodges to 
give our witnesses and the tech people a little advanced 
warning.
    General Hodges, good to see you again. Thank you for your 
continued service in the area of national security.
    You mentioned your time in service at Izmir where you were 
the commander of the NATO Land Command, and, of course, you 
were the commanding general of U.S. Army Europe.
    During that period you saw an unbelievable shift in 
Russians' aggressiveness, also our unpreparedness, and our 
allies without a unified view of the effects of the need to 
deter Russia.
    You also saw the beginning of the European Reassurance 
Initiative that evolved into the European Defense Initiative. 
We have air policing in the Baltics, exercises in the Black 
Sea. We have forward-deployed troops. We have even Germany 
forward deploying troops in Europe.
    From your experience, we are in somewhat of a different 
place than we were when we first began to be aware that we 
needed to take decisive action to deter Russia. But from what 
you see now and where we started, what works? What doesn't? How 
do we keep our allies unified on making certain that they are 
prepared to see Russia as a threat and to work cooperatively 
with us so that they can be deterred?
    General Hodges. Thanks, Mr. Turner, and thanks for always 
being so active with our European allies.
    First of all, of course it is American leadership. Even 
though throughout the history of the alliance we have had 
disagreements and debates, serious debates with our closest 
allies, there never, ever was a question of America's 
commitment or of American leadership. Even our most strict 
allies or our critics now still want and need American 
leadership. That doesn't mean necessarily American troops, but 
American leadership and commitment.
    The second thing, what really works is the National Guard 
and the Army Reserve. Mr. Wilson referenced the State 
Partnership Program earlier. The State of Ohio, the State 
Partnership Program with Serbia, for example, is one of the 
best examples of where this works. And so the relationships 
that were built up over the past few decades with the work in 
the State Partnership Program, it pays off because of those 
relationships.
    And of course, thanks to the Congress' support with the ERI 
[European Reassurance Initiative], now EDI [European Defense 
Initiative], we are able to fill critical gaps in capability 
with rotating National Guard and Reserve units.
    So those really, I think, are critical. I have to say that 
the congressional support is part of it. So even though our 
allies are concerned about maybe what the administration has 
said, they turn back to the near unanimous support of Congress 
for America in the alliance.
    Mr. Turner. Well, continuing with you, General, the 2 
percent requirement, as Ms. Wormuth was discussing, is an 
agreement from our allies. It was agreed unanimously at the 
NATO Summit in Wales. It is not the United States requirement, 
it is actually an agreement by the partners who are NATO 
members.
    This administration has made a significant push to require 
that each NATO member rise to that occasion. I have spoken to 
several parliamentarians who have found that pressure helpful. 
They report that in their own legislative branch people used to 
say: ``Why would we have to increase defense spending? We are 
in NATO.'' And now they are actually debating and saying: ``We 
have to increase defense spending. We are in NATO.''
    Do you see that political shift happening of the 
independent states having an understanding of a goal to 
increase defense spending, and do you see it translating into 
real additional capabilities for NATO?
    General Hodges. Well, sir, in short, I would say, most 
members of the alliance are moving in the right direction. They 
will not all make 2 percent by the year 2024, that is for sure.
    And Germany, in particular, it is inexcusable that Germany 
does not spend more. So I won't try to defend that at all, and 
certainly the administration's pressure has had results.
    What I would say, though, instead of just constantly 
clubbing people over the head about 2 percent, a bit more 
sophisticated approach about what the alliance really needs I 
think would be more helpful.
    When I was a lieutenant in Germany about a hundred years 
ago, West Germany was a frontline state. We had a huge 
Bundeswehr across the border from huge Soviet forces. Today, 
the front line is about a thousand kilometers to the east. We 
don't need a big Bundeswehr. We need more German trains, not 
more German tanks. Germany is the logistics hub, transport 
[inaudible] so that we can move quickly.
    I think if we encourage Germany and the Netherlands to 
think in terms of improving transport, providing cyber 
protection----
    The Chairman. I am sorry, General, the gentleman's time has 
expired. Do want to get on to other questioners. I apologize 
for that. It is awkward to communicate back and forth this way, 
but we do the best we can.
    Mr. Larsen is recognized for 5 minutes.
    Mr. Larsen. Thank you, Mr. Chairman.
    My first question is for General Hodges. I think we have 
established that the role of allies and partners in U.S. 
military strategy and operations is important. I want to move 
to how.
    And for General Hodges, can you and have you thought 
through how you see Special Operations Command [SOCOM] building 
partner capacity in its role being an effective tool in the 
future of our alliances and partnerships specific to great 
power competition?
    General Hodges. Thanks, Mr. Larsen.
    Sure, Special Operations Command in Europe, and also the 
NATO SOF [Special Operations Forces] headquarters in Mons, have 
both made significant impact on helping the front lines improve 
their--not only improve their own special forces, this is a 
very tight community throughout NATO and Eastern Europe inside 
the special forces.
    But also, more and more nations are recognizing the 
importance of resilience, the ability to resist disinformation 
as well as attacks. This is an area where our special forces 
have been particularly helpful in strengthening resilience of 
nations along NATO's eastern flank. I would say you can never 
have too much [inaudible] forces, small numbers with big 
impact.
    Mr. Larsen. Thanks.
    Ms. Wormuth, the next question is for you.
    Have you thought through how we see, how you view SOCOM's 
global access and placement as a means to enable and support 
the DOD competitive advantage and achieve objectives as 
established in the NDS, again, specific to great power 
competition?
    Ms. Wormuth. Thank you, Congressman.
    I would echo to some degree what General Hodges said. I 
think SOCOM is very focused on looking at how to adjust itself 
from the focus it has had very heavily on counterterrorism and 
counterinsurgency for the last 20 years to looking at the role 
of special operations forces in great power competition.
    And, in particular, I think, you know, there is quite a bit 
that our special operations community can bring to bear in 
terms of gray-zone competition, for example. So things like, 
just as General Hodges talks about, the importance of building 
partner capacity and helping frontline states develop 
resistance forces.
    RAND did an excellent study just recently looking at what 
it would take to develop resistance forces in the Baltics, for 
example, and that is something that the Baltic countries could 
do at relatively little expense.
    I think it is really going to call on SOCOM to return to 
some degree to a greater focus on unconventional warfare, which 
is obviously, you know, many of the hybrid threats and things 
that we did during the Cold War in sort of the gray areas and 
the shadows are relevant again, I think, in this area of great 
power competition.
    Mr. Larsen. Ma'am, thank you.
    Mr. Colby, a little bit different angle on the question 
about great power competition. The Brookings Institute did a 
report last October titled ``Don't Make Us Choose,'' and it had 
to do with the Southeast Asian countries basically making the 
case: Don't make us choose between China and the U.S.
    Your testimony really seems to run more counter to that, 
the idea being that these countries do have to make a choice. 
They are sovereign. They get to make a choice.
    How do you balance the public comments from some of the 
countries who are saying, ``Don't make us choose,'' to your 
actually very thoughtful view about how to attract them closer 
to the U.S.?
    Mr. Colby. Well, thanks, sir, and I will be brief here 
given your time.
    I would say that they don't want to choose between China 
and the United States. But, really, what we are asking them to 
do is choose between China and their own autonomy and 
sovereignty. And that is our interest is in bolstering Vietnam, 
Thailand, Malaysia, Indonesia as much as they can to defend 
themselves against Chinese military or other forms of coercion.
    It is not--you know, I always use the analogy of John 
Foster Dulles, the so-called Pactomania of the 1950s, where 
everybody had to become an alliance member.
    As I think I mentioned in my testimony, we want to be very 
chary about extending an alliance commitment. There might be 
one or two we need to consider, but I think really what we want 
to do instead is empower them to defend their own independence 
and sovereignty.
    Mr. Larsen. That is excellent.
    Thank you, and I yield back.
    The Chairman. Thank you very much. And I really appreciate 
you ending that answer right as time expired.
    Mr. Lamborn, you are recognized for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman.
    I would like to ask all three of you to comment on Iran. As 
you know, Russia and China are actively opposing U.S. efforts 
to put pressure on Iran. Western European allies are doing 
little or nothing. They are trying to evade sanctions to keep 
up commercial ties with Iran.
    We have some Middle Eastern growing relationships, 
especially with the Sunni Gulf states, and they have done the 
Abraham Accords with Israel, largely, I think, because of the 
Iranian threat. So we have some potential allies and partners 
in the Middle East, but we don't seem to have very good 
partners willing to step up when it comes to Western Europe.
    And I am concerned, if Joe Biden wins the election, we will 
go back to the JCPOA [Joint Comprehensive Plan of Action] 
program, which, in my opinion, does not prevent Iran from 
getting a bomb, it just delays it by a few years.
    So what should we do about Iran? I would like to hear from 
all three of you.
    Ms. Wormuth, could you start, please? Then General Hodges, 
then Mr. Colby.
    Ms. Wormuth. Sure. Thank you, Congressman.
    Certainly, I would agree that Iran continues to pose a 
serious threat for us, to our allies in the Middle East, and to 
some extent to our allies in Europe.
    So I think part of the problem that we have had in the last 
few years in terms of being able to find a common approach with 
our European partners, for example, towards Iran, I think the 
fact that some of the schisms that I talked about in my opening 
statement between our rhetoric about the importance of allies 
and partners and how we actually talk about allies and 
partners, publicly and privately, that experience, for example, 
the Germans and how they have been treated, I think has made it 
harder for them to find common ground with the current 
administration in terms of how to deal with Iran.
    The European country representatives that I talk to I think 
also are not as clear as they would like to be on what do we 
want from Iran. Certainly, the current administration has 
articulated the maximum pressure campaign. But in the minds of 
many European diplomats that I talk to, the kinds of things 
that the administration has asked Iran to do are not realistic.
    And so I think work needs to be done in articulating what 
is a sort of viable pathway that we can pursue to bring the 
Iranians back to the table. And I think Brian Hook at the State 
Department spent quite a lot of time working with the Europeans 
and it sounded like had gotten close, but ultimately were not 
able to bring them together.
    Mr. Lamborn. Okay. Thank you.
    Ms. Wormuth. So I think we need to be clearer.
    Mr. Lamborn. Okay. Thank you. I would like to hear from the 
other two, also. But thank you.
    Mr. Hodges, and then Mr. Colby.
    General Hodges. Sir, thanks.
    Four points.
    First of all, [inaudible] bomb is not such a terrible 
thing. For sure, it is better if we can stop them. But if we 
delay for a few years, that is not necessarily bad.
    I regret that we have pulled out of the JCPOA, primarily 
because we now lose the opportunity or the vehicle with which 
we could be putting more pressure on European allies to keep 
the pressure on Iran. It is better if we lead instead of leave.
    Number three, support for Iranian civil society. I think 
the administration, our government was pretty quiet after the 
execution of this Iranian wrestler, for example. We should be 
going out of our way to support Iranian civil society.
    Then finally, back to Turkey. Turkey is our bulwark against 
Iran.
    Mr. Lamborn. Thank you.
    And Mr. Colby.
    Mr. Colby. Thanks, Congressman.
    Well, I think your point about the Abraham Accords 
coalition in the region is the point I would like to stress, 
that I think is really where the future lies, which is in a 
sense it is almost a perfect example of the shared threat 
driving traditionally strange bedfellows together, but now we 
have them on the White House lawn, I think, if I am not 
mistaken.
    I think that is the real way to build going forward. And, 
obviously, we have got to maintain a significant degree of 
pressure on Iran to respect our interests and those of our 
regional allies and partners like Israel and the Gulf states.
    But I think this is what you really want to empower, 
especially because we will not be able to allocate the degree 
of attention and resources to CENTCOM [Central Command] that we 
have in the past.
    Really one of the core areas of the NDS was not just the 
Middle East but having a lighter footprint, a more economical 
footprint, and doing this by and through and working with 
partners. And I think this political breakthrough, hopefully, 
will enable us to do so in a more sort of efficient and force-
multiplying way.
    Mr. Lamborn. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Courtney is recognized for 5 minutes.
    I think you are still muted there, Joe. In fact, I think 
you are still muted. There we go. And yet we still cannot hear 
you. You unmuted yourself, but I am not--how are we doing?
    Yeah, we can't hear you, I am sorry. We will try to get 
that fixed and come back to you shortly. You are unmuted, but 
for some reason it is not coming through. So we will work on 
that.
    And we will go to Mr. Garamendi for 5 minutes.
    Sorry about that, Joe, we will try to get it fixed.
    Oh, one other thing. Sorry. This is awkward, I know, but as 
you are asking--once you have asked your question, it is better 
for the member to then mute their microphone while they are 
listening to the answer, because we get feedback if you don't. 
I know then you got to turn it back on when you talk again. But 
if you could do that on-and-off thing it would help reduce the 
feedback.
    And with that, Mr. Garamendi is recognized for 5 minutes.
    Mr. Garamendi. Thank you, Mr. Chairman.
    And to the witnesses, thank you for very interesting and 
useful and important presentations.
    Out in the West, in the technology community, we often talk 
about disruptive technologies. We have certainly over the last 
4 years had a very disruptive leadership, one in which there 
has been a very significant change from America working with 
allies to a philosophy of America first. We will have another 
leader, perhaps, or the same leader.
    My question really goes to the large question of the 
philosophy that we should proceed with in the next 4 years, 
either changing President Trump's philosophy from America first 
to another philosophy, or a Biden philosophy.
    Just on the large scale of things, should it be America 
first and the allies not so much to worry about, or should we 
be looking at partnerships and making our foreign and military 
partners and trade policies about partnerships? Just in the 
large scope.
    Let's start with Ms. Wormuth, and then go to Hodges, and 
from there.
    Ms. Wormuth. Thank you, Congressman. I will try to be 
brief.
    I think all of us at the witness table and many of you have 
spoken to the importance and the value that alliances and 
partnerships bring to the security of the United States. So I 
think that those alliances need to remain at the center of our 
national security strategy regardless of who is elected this 
fall. And if President Trump remains in the White House, I 
wouldn't expect him to dramatically change his approach.
    But I think what I would emphasize is the importance, 
again, of that consistent messaging and consistent and reliable 
communications. I think some of the things that President Trump 
wants to achieve have been made more difficult by the 
disruptive communication style.
    But, again, there has been a bipartisan tradition of 
alliances and partnerships being valuable to the U.S., and I 
think it made sense in the past, it makes sense going forward.
    Mr. Garamendi. Thank you.
    General Hodges.
    General Hodges. Yes, sir. Thank you.
    So one of the things that has been so helpful is the 
consistent support by the Congress for the alliance and for 
working with our allies. Our allies understand, by and large, 
the American political system. They understand that Presidents 
and administrations change. So having the consistent support 
from the Congress has really been important, and I hope that 
this will certainly continue.
    Mr. Colby. Congressman, I would say that I think what we 
want in our overall approach is one of enlightened self-
interest. And, in fact, I would say alliances and partnerships 
are necessary if you are going to put America's interests 
first. I mean, I think it is--I am not being cute. But actually 
the way to achieve the interests of the American people is to 
have these alliances and partnerships, but make sure they work.
    And a good friend and predecessor of mine, Jim Thomas, put 
it well, I think, a while ago, when he said we need to change 
our traditional alliance from protectorates to partnerships. As 
I think General Hodges was indicating, in some ways our 
traditional partnerships had the aspect of protectorates 
because, if we look back to World War II, we were half of 
global GDP. That just isn't the case anymore.
    So I actually think friction is good and valuable if it is 
deliberate and intentional and achieving the results we want, 
which is a more equitable coalition that is adjusting to the 
reality that what we and our traditional allies have to offer 
is not enough to outweigh China and what it is able to do, and 
Iran and Russia and terrorists.
    So I think, you know, we have to adapt, and that is going 
to result in friction. I think, you know, the [inaudible] I saw 
in the press just downgraded its projections of the American 
economic growth over time. As Ms. Wormuth rightly pointed out, 
we are going to see pressure on the defense budget.
    I actually think this could be a warning signal, this is 
sort of a flare. I say this to the Japanese, for instance, and 
the Germans a lot, is this is going to come due at some point, 
and Americans are ultimately, I mean, you would know better 
than I, are going to say something isn't right here. So we need 
to have more equity and something more balanced, but making the 
whole thing work together better as the goal.
    Mr. Garamendi. My time has expired, and I thank you.
    The Chairman. Thank you very much.
    Mr. Bacon is recognized for 5 minutes.
    Mr. Bacon. Thank you, Mr. Chair.
    Thanks for the panel for a great discussion. What I am 
hearing is what conforms to my perspective, that America is the 
indispensable nation. It is indispensable to freedom, rule of 
law, human rights, free and fair trade. But we can't do it 
alone. I think that is what I am hearing as well.
    China's GDP is matching ours soon. We also have Russia that 
is spending much above our level of GDP. Then, of course, you 
have got Iran and still terrorists--terrorism.
    But my question is really to--my first question is to Ms. 
Wormuth and Mr. Colby. I did serve 30 years in the Air Force, I 
did a lot with NATO. Can we try to do something similar again 
in the Pacific? Can we find a structure that better integrates 
ourselves with Japan and Australia, New Zealand and other 
countries, like we had with SEATO [Southeast Asia Treaty 
Organization] 30 years ago? Should we try to pursue something 
along these lines?
    Ms. Wormuth. Thank you, Congressman.
    You know, my sense is that it would be difficult to 
establish a NATO- or SEATO-like formal alliance with the 
countries that you mentioned in Asia. But we do have already 
alliance mechanisms with Japan, Australia, South Korea. We have 
ASEAN [Association of Southeast Asian Nations]. And I think 
there are pieces to build on that are substantial.
    The challenge is that many of the countries in the Indo-
Pacific don't want to have to choose between the United States 
and China. They want to engage with China for very clear 
economic interests, while most of them lean towards the United 
States for security interests.
    And I think they are trying to sort of thread that needle. 
I think it would make it difficult because of that to establish 
a formal relationship. But I think there is much more we can 
do, and Mr. Colby has spoken to it eloquently, and that is 
really where we need to be focusing with DOD and the State 
Department in the next 10 years.
    Mr. Colby. Thanks, Congressman. Just building on what Ms. 
Wormuth, I think, rightly said, about the difficulty of forming 
it.
    So given that, I think it is better to use our political 
capital on that front to push for increased defense spending, 
posture enhancements and integration, and other kinds of 
preparation for a shared effort.
    And I think one of the key reasons why we don't need to 
push so hard is I think when you look at it practically, what 
we need from each individual country is more its own self-
defense, with I think the single exception of Australia, which 
is more of a collective defense model, and I commend them in 
their defense strategic update over their winter, our summer.
    But really Japan needs to focus primarily on its own 
defense, Taiwan, South Korea, Vietnam, Philippines, et cetera.
    So actually, NATO wouldn't really get us that much because 
we are not going to be asking too much of the allies to do for 
each other. So, again, I would rather spend that political 
capital on things that would actually contribute more to 
deterrence and defense in the region against China.
    Mr. Bacon. Well, thank you for your perspective. My concern 
is we have a lot of bilateral relationships there. If we had a 
little more multilateral and a little more integration, it may 
be more effective.
    My next question is to General Hodges. I appreciate your 
perspective, sir, in how we can better deter in the Baltics. 
What more can we do to help preserve these countries that are 
way on the front line and vulnerable? Would it help to have a 
U.S.-flagged unit permanently there, such as like an air 
defense unit?
    Thank you.
    General Hodges. Thanks, Mr. Bacon.
    Actually, we don't need to have that. I think the alliance 
has done a very good job responding to the threat in the Baltic 
region. We probably are better there than anywhere else in the 
alliance. I would favor maybe improving the transportation 
logistics infrastructure there to facilitate rapid 
reinforcement.
    But I think in the Baltic region, we are in a good place. 
Kaliningrad is a liability for the Kremlin. The geography is in 
our favor in the Baltic Sea.
    So keep what we are doing, maybe improve some logistics 
capability, transportation capability up there. The Black Sea 
is where we are on the wrong side of the equation.
    Mr. Bacon. Thank you.
    And, Mr. Chairman, I yield back.
    The Chairman. Thank you very much.
    We will give Mr. Courtney another try. Is he up on the 
screen there? Yeah, we don't seem to be making progress on that 
front.
    So we will go to Ms. Gabbard.
    Ms. Gabbard. Thank you very much, Mr. Chairman.
    And thank you for being here today.
    I want to bring the conversation back to Turkey. I hope to 
hear from General Hodges and Ms. Wormuth. Sorry?
    The Chairman. Go ahead.
    Ms. Wormuth. Congresswoman Gabbard, yes.
    Ms. Gabbard. Okay.
    Ms. Wormuth. Do you want me to address?
    Ms. Gabbard. Thank you.
    In earlier comments, General Hodges talked about some of 
the issues with Turkey, one of which is the kind of arbitrary 
drawing of the line between CENTCOM and EUCOM [European 
Command] there between Turkey and Syria, and perhaps some 
differences between the commands on priorities in the region 
which drove some of the decisions being made.
    I was surprised, though, to hear you, kind of the takeaway 
being that the United States needs to rebuild or earn back 
Turkey's trust and confidence rather than the other way around. 
When you look at the laundry list of things that Turkey has 
done and is continuing to do, not only that undermine U.S. 
objectives, but also undermine NATO objectives, with what is 
happening in the Mediterranean now, in conflicts and issues 
they have had in Greece and France and so forth.
    You mentioned, General Hodges, about hold it--Turkey needs 
to be held accountable. What needs to be done to do that? And 
when you are finished, I will ask Ms. Wormuth to answer the 
same question.
    General Hodges. Thank you, Congresswoman Gabbard.
    This is very difficult, and I don't have a ready solution 
for many of these challenges.
    My point is that if we think strategically, we have got to 
figure out how do we keep Turkey on the side. For sure, 
distrust is a two-way thing. I certainly did not mean to imply 
that the burden is on us to regain their trust, and I don't 
condone much of what the Erdogan administration has done or 
said.
    My point is to think long term, and, fortunately, we have 
not done something that causes long-term damage on our side of 
this relationship.
    I think we work with countries and allies around the world 
where we are not happy with the policies that they have about 
certain things, but we manage to keep that compartmented so 
that we can focus on our security, and our security is better 
when we are able to have radar, air bases in Turkey, and that 
Turkey controls the straits out in the Black Sea. That all is 
to our advantage.
    Ms. Gabbard. Thank you. Thank you, General Hodges.
    I think that one of the main issues that I have is that 
among the differences we have with Turkey's policies, they are 
not limited to their domestic policies or their interaction 
with other countries. You know, we have seen indirect fire on 
our troops at known American locations within northern Syria.
    And really there is no recourse. Turkey acts with impunity, 
as they have for so long. And I have been asking these 
questions for a long time in Congress, and I am generally 
responded to with a shrug of the shoulders, like, well, we 
need--the basic thing is we need them more than they need us. 
And so Turkey feels like they can do whatever they want.
    Ms. Wormuth, I wonder if you can weigh in on this, about 
some constructive actions either the United States or NATO can 
take to make it so that Turkey is not in a position of acting 
without any consequence whatsoever.
    Ms. Wormuth. Well, Congresswoman, as General Hodges said, 
there is not--you know, I am a big fan of ``The Sound of 
Music.'' How do you solve a problem like Maria? Turkey is a 
very challenging geostrategic problem.
    You know, I was in the Obama administration when we were 
fighting ISIS, and we knew there was tension between the 
necessity to have partners on the ground, and the Syrian 
Democratic Forces were what we had. We knew Turkey had issues 
with that.
    In my experience, however, the United States worked very 
hard and very closely with Turkey to try to assuage their 
concerns, and nothing was ever enough for them.
    So we do have a challenge. They are very important in terms 
of where they are located. But the authoritarianism that 
Erdogan has turned to is concerning.
    So I think we have to keep the dialogue open and continue 
to try to keep Turkey inside the fold, but at the same time 
communicate that doing whatever they want is not acceptable. 
And the S-400, for example, is a key example of that.
    Ms. Gabbard. Thank you.
    The Chairman. The gentlelady's time has expired. Thank you.
    Mrs. Hartzler is recognized for 5 minutes.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    I remain deeply concerned about China's growing economic 
and military footprint in Africa and our ability to adequately 
counter those activities. China is promoting not just the Belt 
and Road Initiative, but also its party-army model through 
training and education initiatives with African militaries.
    So, Ms. Wormuth, how can the Department of Defense better 
utilize security cooperation authorities to build partner 
capacity so our partners in Africa understand the risk of doing 
business with China? And is there a way to successfully counter 
China's debt-trap diplomacy and military presence in Africa, 
especially in countries with a history of corruption? And, 
finally, what more should the Department of Defense be doing to 
counter this threat?
    Ms. Wormuth. Thank you, Congresswoman.
    Well, first, I think AFRICOM's [Africa Command's] zero-
based review, I hope, will shed light on which kinds of 
activities are helping us and helping our African partners. 
There is a lot you can do with building partner capacity, but 
as Mr. Colby and others have indicated, we are going to have to 
make some hard choices. So I think we have to look at where are 
we getting the most bang for the buck with the work we are 
doing with the Africans.
    I think the security assistance programs we have are a 
valuable tool. And a lot of what I see China doing in Africa 
is, frankly, quite self-serving and exploitative, and I think 
many African countries see that. So the work we do with them 
isn't just about us being extractive, it helps them. So I think 
we should continue to do that, but be judicious in our choices.
    Mrs. Hartzler. Great. Thank you.
    Lieutenant General Hodges, in your testimony you talk about 
the importance of U.S. leadership and resolving the rising 
tension between Greece and Turkey in the eastern Mediterranean.
    In your opinion, what can the United States do to resolve 
this conflict between two NATO allies that have a history of 
tensions, and what role does the Department of Defense play in 
easing tensions between these two nations?
    General Hodges. Congresswoman Hartzler, thank you.
    If I may reference Africa, working with our allies.
    Mrs. Hartzler. Sure.
    General Hodges. You know, the U.K., France, Germany, Italy, 
Spain all have extensive efforts going on in Africa. So this is 
an opportunity, once again, where we can work with allies to 
achieve what our objectives are.
    When it comes to Greece and Turkey in the eastern 
Mediterranean, I think that the State Department's guidance to 
its diplomats in the region has been to keep Germany in front, 
let Germany be the lead diplomatic effort here.
    I think, frankly, the United States in the past would have 
been the one to do this, to get these allies together, as we 
have had to do numerous times in the past. But we have got to 
find a way, with these two nations in particular, find a way 
for them to back down, to climb back down from where they are.
    I think at the end of the day, for Turkey it is about 
economic relationships with the European Union [EU]. Perhaps 
Germany could find a way to offer Turkey some sort of a trade 
union with the EU as a return for them backing down.
    Greece, of course, is under massive pressure from the 
refugees that are coming across the Mediterranean, and they are 
kind of the entry point, them and Italy, for all the refugees 
coming to Europe. Finding a way to help them would also be a 
part of this.
    Most of these refugees would not be coming across if it was 
not for Russian support of the Assad regime in Syria or the 
support for General Haftar in Libya.
    Mrs. Hartzler. Do you think Germany is doing enough to be 
aggressive in reaching out and trying to resolve this issue?
    General Hodges. I can't tell for sure. I have spoken with 
our ambassador in Greece, one of the best diplomats I have ever 
met, Ambassador Geoff Pyatt. He says that the Germans are 
working hard there, but I don't think that they are approaching 
it the way that maybe a senior American diplomat who had the 
responsibility for doing it might be able to do that.
    Mrs. Hartzler. Okay. Last topic here. Lieutenant General 
Hodges, the armed services has made great strides in providing 
expanded victim services for sexual harassment, assault 
response, and prevention. But I am curious if service members 
who are stationed or deployed overseas are afforded the same 
level of resources as service members stationed in the United 
States. I have an open constituent issue on this right now as 
it relates to Poland.
    And so based on your previous experience as commander of 
U.S. Army Europe, what should the Department of Defense along 
with the State Department do, working with our allies, to 
ensure U.S. military victims of sexual assault in host nations 
are provided adequate resources? And do you think we should be 
doing a better job?
    The Chairman. Unfortunately, the gentlelady's time has 
expired, and we will have to take that for the record. It is a 
very important question, but I would love to get your 
perspectives to Mrs. Hartzler and the committee on that.
    [The information referred to can be found in the Appendix 
on page 97.]
    The Chairman. The gentlelady's time has expired.
    Mr. Gallego is recognized for 5 minutes.
    Are you with us there, Ruben? You still got the little mute 
sign in front of you there.
    Mr. Gallego. Thank you. I apologize. It is always difficult 
when you are trying to do these events.
    The Chairman. We got you now. Go ahead.
    Mr. Gallego. Thank you. Okay. So a few questions that have 
come up. Thank you, again. This has been a great discussion so 
far.
    I guess in terms of our kind of further going down the 
rabbit hole with Turkey to begin with, if Turkey isn't part of 
NATO and we can't rely on Turkey's ability to field the large--
because they are the largest infantry in the European theater 
right now for us in terms of should something ever happen with 
when the balloon goes up and we would need their assistance, if 
we can't necessarily rely on NATO, then where are we going to 
find the kind of mass that they provide right now?
    And I apologize, if we could start with Lieutenant General 
Ben Hodges, and then Christine, and then Mr. Colby.
    General Hodges. Thank you, sir.
    Well, for sure, Turkey brings a lot of military 
capability--air, land, and sea forces--to the alliance. And if 
for some reason they were no longer in NATO, that would be a 
gap that would have to be filled by us or the U.K. or other 
allies. So that is a problem right from the start.
    But more importantly is control of the straits that connect 
the Black Sea to the eastern Mediterranean. And so having a 
NATO ally that has control and sovereignty over the straits----
    The Chairman. I am sorry. We have lost--we seem to have 
lost the general there. If you want to move on to somebody else 
to answer the question.
    Mr. Gallego. Yes. Ms. Wormuth. You are muted, Ms. Wormuth.
    Ms. Wormuth. Okay. I think I am unmuted now.
    Mr. Gallego. Yes. Go ahead.
    Ms. Wormuth. I think the size of the Turkish military is 
just one reason why we need to continue to work hard, as 
challenging as Turkey is, to keep them in the alliance.
    You know, certainly if they were outside the alliance the 
U.S. has a very large ground force, but we don't want to have 
to go there. And as General Hodges said, we need them from a 
maritime dimension. We need them in terms of just the 
geostrategic bridge they are between Europe and the Middle 
East.
    So it is all of those reasons why I think we have to keep 
working very hard on these tough problems. I wish we had better 
answers, but I think we just have to keep grinding away on it.
    Mr. Gallego. Mr. Colby.
    Mr. Colby. Thanks, Congressman. I actually don't--I don't 
really have anything to add to what has already been said, if 
you had some questions.
    Mr. Gallego. I guess it is kind of a deeper dive question. 
I was earlier on a call with members of the Bundestag as part 
of the German Marshall Fund, and I do have conversations a lot 
with a lot of European defense ministers, both NATO and non-
NATO allies. But there is a sentiment that I keep hearing that, 
though Congress is very affirmative in our NATO 
responsibilities and the fact that we would back up Article 5, 
there is a sentiment that is still felt out there that the 
Trump administration itself is not a long-term ally when it 
comes to NATO.
    So I guess this conversation goes to--first we will go back 
to General Hodges.
    Like, have you heard of that sentiment, and how deeply is 
it taking root that there is some doubt whether we would uphold 
our NATO commitments?
    General Hodges. Well, sir, the fact that we even have to 
have this discussion tells you the significance, and to imagine 
we would ever be in the place where allies would wonder whether 
or not the United States would ever be there, or that the 
President or any President would question Article 5, certainly 
not in a way like that.
    Mr. Gallego. Ms. Wormuth, do you have anything to add?
    Ms. Wormuth. There is very significant concern, I think, in 
the conversations I have with folks from Germany, whether in 
the diplomatic corps or elsewhere, as well as European 
countries. And I think that is why you see what I would call 
hedging behavior to some degree, when you have got Macron 
talking about a European army, for example. While I think that 
would be a difficult undertaking, it is reflective of the 
concerns they have about our commitment right now.
    Mr. Gallego. Thank you, Mr. Chair. I yield back my time.
    The Chairman. Thank you.
    Mr. Wittman is recognized for 5 minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    I would like to thank our witnesses today.
    I would like to acknowledge the importance that you all 
pointed out to our partnerships and our alliances. And I would 
like to go to the National Defense Strategy that talked about 
how do we actually look at ways to improve those alliances, 
especially getting them to the point where we can put them into 
extended networks to make sure that we have the ability to take 
decisive action, make sure we are able to deter.
    And there are three elements in the plan that are of 
particular interest. The first item says, upholding the 
foundation of mutual respect, responsibility, priorities, and 
accountability. Number two, expanding regional consultative 
mechanisms and collaborative planning. And number three, 
deepening interoperability. And I wanted to spend a few minutes 
talking about items number two and three.
    As we develop our operational plans, it doesn't seem like 
to me that we go in depth with our allies and partners who we 
are going to rely on, especially if there is a major conflict. 
Now, I understand that those operations, operational plans, are 
classified, but I worry that we don't involve folks to that 
level. And I want to make sure, too, we understand what our 
allies can do, because that drives decisions in what we need to 
do in the budgeting side, what they need to do in the policy 
side, especially in developing the NDAA [National Defense 
Authorization Act] each year.
    I want to make sure, too, that we understand, it seems like 
to me that there is a lack of network architecture and 
communications to be able to do the interoperability that we 
need to do.
    In fact, it was highlighted to me. I went to a RIMPAC [Rim 
of the Pacific] Exercise, and I was on board an Australian 
ship, and I will never forget an Australian brigadier coming 
out just flaming mad that he couldn't communicate with other 
folks in the exercise through the radio. So he was on the cell 
phone, on his cell phone, communicating to allies and partners 
in that exercise. It just goes to show some of the concerns.
    And I wanted to ask this question. What are the concrete 
steps that the United States military can take to make sure we 
have the interoperability, the technology to where we can not 
just say in concept that we have these relationships, and not 
just that we practice them a few times a year and then see the 
problems, but how do we get the deep and meaningful 
interoperability that we need with our allies and partners if 
we find ourselves in a high-level conflict? And I argue it is 
also incredibly important on the deterrent side.
    So, Mr. Colby, can you give me your perspective on that?
    Mr. Colby. Well, Congressman, I think you put your finger 
right on it. I mean, I think this whole idea--I mean, 
interoperability is important. Obviously, the capability to 
operate together. The phone example is really striking.
    But as I mentioned in my testimony, I think we want to try 
to lean on the, for instance, force development. I think Ms. 
Wormuth may have started this under the last administration. 
But doing much more aligned force development plans with, for 
instance, the U.K. I think we could move forward on that with 
the Australians.
    I think we do have to be cautious, and that is where a lot 
of this reluctance comes from, is that you don't know who is 
going to be there in the event that the balloon goes up, as 
Congressman Gallego said.
    But I think given, for instance, where the Australians are 
going, given what the Japanese have indicated, I think we can't 
afford to be redundant. So a much deeper integration alignment 
in posture, in operational planning. You know, there are ways 
to build in uncertainty. But I think we should be prepared to 
take more risks because I think on the other side we will get 
more efficacy if we plan in a more integrated fashion.
    Mr. Wittman. I would like to bring up one other point, too. 
I have heard from diplomatic and military leaders that have 
been involved in ASEAN about their concern about corruption. We 
hear Chinese officials paying officials at the ASEAN to be able 
to speak before the United States. And it seems like to me this 
is emblematic of a deeper-seated problem that we have with the 
Chinese clearly trying to take advantage through corruption in 
these processes.
    I wanted to ask, what do you think the United States can do 
to combat this level of corruption, which seems to be growing 
into more systematic or systemic corruption within ASEAN, and 
what China does, not just in the Asia-Pacific, but around the 
world?
    So, Mr. Colby, I would like to get your perspective on 
that.
    Mr. Colby. Great. Thanks, Congressman.
    Well, I think this is one of the areas where we can use our 
values in our own advantage, we and the Europeans and the 
Japanese, which is to say that we stand for long-term 
accountability, the rule of law, and this kind of thing.
    I don't think we are going to be able to match every 
Chinese renminbi that they are going to throw around. But 
people in the region, if they are not put under the really 
coercive shadow of Chinese power and have to swallow Chinese 
hegemony, they will eventually see which is the better course 
to take, and I think that is where we want to be. Things like 
DFC [International Development Finance Corporation] factor and 
are valuable, but also our legal code and values.
    Mr. Wittman. Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    Mr. Carbajal, you are recognized for 5 minutes.
    Mr. Carbajal. Thank you, Mr. Chair.
    And I want to thank all the witnesses for participating 
today.
    I want to take a minute to discuss New START [Strategic 
Arms Reduction Treaty], which is set to expire in February 2021 
without further action by the administration.
    I know this hearing is about our alliances, but the treaty 
is important in this conversation. While I understand the 
administration believes that they can negotiate a trilateral 
deal that includes China, my concern is that why would we put 
ourselves in a situation where we have no arms control 
agreement in place, especially with the U.S. withdrawing from 
the INF [Intermediate-Range Nuclear Forces] Treaty in 2019?
    Our allies clearly see the value of the treaty, and NATO 
Secretary General Stoltenberg has urged the United States to 
extend the agreement in order to provide the necessary time to 
pursue a new deal.
    To all the witnesses, starting with Ms. Wormuth, do you 
think it is in the best interests of the United States and our 
allies to allow New START to expire without a new agreement in 
place?
    Ms. Wormuth. No, Congressman. I very much believe that it 
is in our interest to basically refresh New START and extend 
it, and exactly as you said, spend that time then working with 
the Russians to bring in their hypersonic weapons, the other, 
you know, nuclear torpedoes, et cetera, as well as their 
nonstrategic nuclear weapons into a treaty framework. And we 
could certainly continue during that time to try to engage the 
Chinese in conversations about their nuclear policy and their 
nuclear program. But I think it would be a negative development 
for the U.S. if we let New START lapse.
    Mr. Carbajal. Thank you.
    General Hodges.
    General Hodges. Thank you, sir.
    I also think it would be a mistake to not extend New START 
while we continue to work on refreshing it. But this, again, is 
a place where we need allies. I think Germany is probably the 
only country in Europe that could actually influence Kremlin 
behavior. So we could be working with allies and put pressure 
on the Kremlin to achieve this.
    Mr. Carbajal. Thank you.
    Mr. Colby.
    Mr. Colby. Thanks, Congressman.
    I think the New START Treaty, while it has imperfections, 
it is still a solid basis for strategic arms control. It is 
based primarily--almost entirely derived from the framework 
which was negotiated by President Reagan and then President 
Bush in the early 1990s. And we would be better off with 
something like New START than----
    Mr. Carbajal. Thank you. I think we lost you. I will 
proceed to my next question.
    Chairman Smith and Ranking Member Thornberry both touched 
on a topic I want to discuss further, which is how do we 
balance security needs with political objectives when dealing 
with partner countries that have documented human rights 
violations and authoritarian leaders?
    Ms. Wormuth, how can the Department of Defense be further 
utilized as part of the whole-of-government strategy to promote 
human rights and democratic values among partner countries?
    Ms. Wormuth. Well, I think one of the most important 
contributions the Department of Defense makes is leading by 
example in terms of demonstrating adherence to the rule of law 
and demonstrating the importance of human rights.
    And in all of our security assistance programs, for 
example, building partner capacity, we include in the curricula 
courses on the rule of law and the importance of human rights. 
And we have things like the Leahy law, which we discussed 
earlier, that keeps us from operating with foreign country 
units that are abusing human rights.
    I think that is the most important contribution DOD makes. 
There is a lot of action that needs to happen on the State 
Department side, but that is where I think DOD has a role.
    Mr. Carbajal. Thank you.
    Mr. Colby, with regards to whether there is a U.S. interest 
in having U.S. troops present in South Korea, President Trump 
has previously said, quote, ``It can be debated. I can go 
either way,'' end quote.
    Do you believe it is in the U.S. national security interest 
to maintain a presence in South Korea? And can you speak to the 
benefits of our forward posture in South Korea?
    Mr. Colby. Thanks, Congressman.
    I think our posture, our alliance with South Korea makes a 
lot of sense, it is very valuable. We will need a presence 
there. It does need to adapt in light of the overriding 
importance on China going forward, and it needs to be 
equitable.
    I would also just like to say, sir, that what I said at the 
end was that New START, while an imperfect agreement, is better 
than nothing at all. It is a solid basis.
    Mr. Carbajal. Thank you very much.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Gallagher is recognized for 5 minutes.
    Mr. Gallagher. Thank you, Mr. Chairman.
    Today we are talking about the role of allies in strategy. 
Strategy is often difficult because it requires us to 
prioritize between what is essential and what is extraneous and 
identify, if nothing else, what are the strong points for 
geopolitical competition.
    It seems obvious to me both geographically and 
geopolitically that there is perhaps no more strategically 
important piece of terrain right now in INDOPACOM [Indo-Pacific 
Command] than Taiwan.
    So my question for Mr. Colby is, what are your views on our 
current policy of strategic ambiguity towards Taiwan and 
whether we need to rethink that policy and perhaps clarify it?
    Mr. Colby. Thanks, Congressman.
    I fully agree with you, and I know you have been leading 
the discussion on this. Also, I think we should move towards 
more clarity on our position.
    I do think under TRA [Taiwan Relations Act] and the Six 
Assurances we already are effectively committed, but I think we 
run into a danger of a Korea 1950 situation. Ambiguity is 
tremendously perilous when the other side has the capability to 
do something about it, the desire, and may think he can get 
away with it, as happened in 1950. And I think that is our 
danger today.
    You know, Taiwan is valuable militarily in its placement in 
the first island chain, because our credibility is already on 
the line. Ask any of the people who talk to the Asian partners 
and everybody thinks it is the canary in the coal mine or the, 
you know, what-have-you.
    And then, third, its status as a liberal democracy.
    So I think moving towards the clarification consistent with 
our One-China policy makes a lot of sense. And I do think it is 
beginning to have more and more support. It is definitely 
bipartisan. I would commend Richard Haass' piece in Foreign 
Affairs recently. I think that clarity would be safer in a way 
that is judicious and prudent diplomatically with Beijing.
    Mr. Gallagher. Thank you. Maybe I will follow up with you, 
Mr. Colby, on a different region of the world, Europe.
    Obviously, there have been those on this committee, myself 
included, who have asked the White House for clarification on 
what exactly it intends to do with troop reductions in Germany.
    You have been an outspoken, I don't know if critic is too 
harsh a word, but certainly pointed to the fact that there is 
more that Germany can be doing.
    I would just be curious to get your views on any proposed 
troop reduction in Germany and your broader views on the way we 
can encourage our German allies to make more substantial 
commitments to the NATO alliance in light of Russian 
aggression.
    Mr. Colby. Well, thanks, Congressman. I think your and your 
colleagues' questions are important and they deserve answers.
    I mean, based on what Secretary Esper and General Hyten and 
General Wolters said in July, this is an ongoing discussion, so 
we will see what it is like. They did say it is consistent with 
the National Defense Strategy designed to deal with the 
secondary threat from Russia and Europe, but over time making 
us more, as you rightly said, I think, sir, prioritizing Asia.
    I would also like to put this, the Germany discussion, 
really in perspective and say that this friction--we can talk 
about whether each move or the overall tone is appropriate. But 
we do need to look at this in a couple of ways.
    One, this friction is not new. I mean, President Johnson in 
the balance of payments crisis literally insisted on payment 
from Germany in order to retain the stationing of U.S. troops 
in West Germany at the time. And, of course, the Congress, as I 
understand, passed the Mansfield Amendment, I believe which was 
calling for the wholesale withdrawal of U.S. troops from 
Europe.
    So we have been through this before. In the case of Korea, 
President Carter was going to remove all forces from the 
peninsula. And actually burden-sharing issues, I would say, 
were more intense but also more candid and I think more 
realistic during the Cold War.
    The other thing I would say about Germany is, let's take 
them at their word. They say they are committed to the 
multilateral rules-based order. Nobody has benefited more from 
NATO and the post-war order than Germany itself. Of course, 
there is the sad history before that.
    But as General Hodges indicated, the Bundeswehr of the Cold 
War after 1955 was the most capable European military in NATO, 
And in some ways, and I would defer to him, maybe more capable 
than the American Army in Europe at some points.
    In 1988, the West German military had 12 active divisions 
on the inter-German border. That is a Germany two-thirds the 
size of the current Federal Republic. I don't think they can 
put one, certainly not two divisions together today.
    And I disagree with General Hodges, with all due respect. 
If we are going to contribute more and more to Asia, and we 
have to focus on it given China's scale and scope, that means 
Germany does have to play a role, and that does involve German 
tanks and German artillery and German tactical aviation, as 
part of NATO, of course.
    But, I mean, honestly, I am befuddled with Germany. I am 
actually a big fan of Germany. Like Congressman Gallego, I have 
done things with the German Marshall Fund. I go there at least 
once a year. But I don't understand, because on the one hand it 
is either a bit obtuse and there is its massive hypocrisy, that 
nobody has benefited more than they; or on the other hand it 
looks quite cynical, honestly.
    And I refuse to believe the Germans are so cynical. So I 
think they really should meet their obligations as they claim 
to want to do.
    The Chairman. Thank you. The gentleman's time has expired.
    Mr. Cisneros is recognized for 5 minutes.
    Mr. Cisneros. Thank you, Mr. Chairman.
    And thank you to our panelists for being here today--or 
being here virtually, I should say.
    As demonstrated by the COVID-19 [coronavirus disease 2019] 
pandemic, infectious diseases know no border and global health 
crises are a matter of national security. In turn, it is 
imperative that we work directly with the global community to 
improve pandemic preparedness at home and abroad, including 
through initiatives like the Global Health Security Agenda, a 
network of 69 countries working to coordinate on global health 
issues.
    How can we elevate global health security as a key 
component of our bilateral and multilateral security 
relationships? And how should the military work with our 
diplomats and development professionals to ensure we can 
address the national security threat with all the tools in our 
toolbox?
    Ms. Wormuth, you want to go ahead first?
    Ms. Wormuth. Sure. Thank you, Congressman. Thank you very 
much. That is an issue I care a lot about. And I think we do, 
before this pandemic happened, I was absolutely a proponent of 
arguing that we should pay more attention to global health 
security challenges and invest more as a country in our own 
public health infrastructure as well as helping other countries 
around the world do that.
    Our military has some pretty impressive health surveillance 
capabilities, some pretty impressive response capabilities that 
are relevant to global health challenges. So I think that our 
Defense Department has quite a bit to offer.
    But really the center of gravity needs to be in the 
development side of things, I would argue, and revitalizing, 
for example, many of the programs that were started as part of 
the Global Health Security Agenda, and going back and 
allocating more to the other departments in our Federal 
Government that have an important role to play, like the CDC 
[Centers for Disease Control and Prevention], like [Department 
of] Health and Human Services, for example, and like USAID 
[United States Agency for International Development].
    Mr. Cisneros. Thank you for that.
    So President Trump frequently discusses our overseas force 
posture in terms of financial costs without discussing the 
benefit to U.S. national security.
    What are the benefits to U.S. national security for having 
U.S. forces forward deployed in the Indo-Pacific? And what risk 
would we incur if our posture was reduced? What challenges do 
the domestic political environment in the United States for 
alliance management? And what about the domestic political 
environment within our Nation's allies.
    Mr. Colby, would you mind taking a shot that question?
    Mr. Colby. Sure, Congressman.
    I mean, broadly, I agree with your point that a forward, 
full presence in particularly the Western Pacific is very 
valuable.
    I mean, I think it is dependent. I mean, we do need to 
adapt that forward presence. It needs to be competent and 
credible, which means designed to deny China its ability 
particularly to take over or subordinate a country like Taiwan 
or eventually South Korea or the Philippines.
    But as I said I think earlier, I mean, the way it seems to 
me to make it to America first is to do it alongside allies and 
partners. And that is not--I don't mean that in a sort of 
kumbaya sort of way. I mean, to be totally candid, I think they 
are more akin to business partnerships than friendships. But in 
business partnerships you also have to--you have to have candid 
conversations. You have to read, baseline, where things are.
    But I am optimistic that we are going to, maybe, if for no 
other reason than the countries of Asia, they recognize they 
need the United States. And one of the things the 
administration has really done that I think is lasting and 
important is made very clear that the United States has a keen 
sense of the challenge posed by China and what is going to be 
entailed to confront that challenge over the long haul.
    Mr. Cisneros. General Hodges, do you want to take a shot at 
that question, too?
    General Hodges. Sir, thanks.
    This is all about access. Without having allies and forward 
basing, we can't get there. You can't defend America just from 
Fort Hood, Texas, or from Norfolk Naval Air Station or Camp 
Pendleton.
    And so with very small numbers. If you think about 60,000 
American Army and Air Force and Navy that are in Europe, 
60,000, that is barely over half of the stadium that the 
University of Michigan football team plays in. So a very small 
investment, yet gives us access.
    And same with the Republic of Korea. I spent a year there. 
It gives us the chance to [inaudible] what Secretary Carter 
used to call horizontal escalation. If China does something 
against Taiwan, we are in a position to strike China somewhere 
else.
    So these bases and the alliances that we have, the 
partnerships, give us multiple options. It is an important part 
of deterrence.
    Mr. Cisneros. Thank you all for those answers.
    I yield back the balance of my time.
    The Chairman. Thank you.
    Ms. Houlahan is recognized for 5 minutes.
    Ms. Houlahan. Thank you, Mr. Chair.
    My question, my first one, I believe would be most likely 
for Ms. Wormuth.
    During World War II, Allied forces cooperated extensively 
in the development and manufacturing of new and existing 
technologies to support military operations and intelligence 
gathering during the war. We have continued that tradition with 
many of our allies and partners just ongoing to today.
    And as we look at today's modern warfare, evolving warfare 
strategy, specifically in the realm of cyber and AI [artificial 
intelligence], I believe that it still is beneficial to the 
U.S. to share or collaborate on technological ideas or plans 
with our allies or partner nations.
    Can you comment on what do you see as the barriers to 
improving the responsible collaboration with allies on new 
technologies?
    Ms. Wormuth. Sure, Congresswoman. Thank you for that 
question.
    Certainly I agree that cooperating with our allies and 
partners on technology issues is an important thing that we 
should be doing. In the cyber domain, for example, we have a 
NATO Center of Excellence in the Baltics, for example.
    I think one of the most important things we can do is along 
the lines of something that Mr. Colby brought up earlier, which 
is to in our planning processes, in our force development 
processes, to have much more robust and detailed dialogues with 
some of our closest partners, like the U.K., for example, in 
Europe, or Australia, Japan in the Indo-Pacific, for example.
    Not only should we be talking to them about sort of what 
traditional, conventional capabilities they can bring to bear 
in a potential warfight, we need to be talking with them about 
AI, about cyber technologies. And in many cases those countries 
are quite innovative. So that is an area I think we should work 
on.
    The barriers, of course, are the sort of ones we 
traditionally encounter in technology transfer areas, which is 
we, of course, have to be concerned about protecting our 
intellectual property, we have to be confident that our allies 
are going to protect any sensitive technologies that we grant 
them access to.
    But that is something that we sort of have a number of 
mechanisms to work through and a number of agencies who help us 
with that. There are barriers, but I think we could probably 
take a little bit more risk, given the gravity of the 
challenges we are facing today.
    Ms. Houlahan. Thank you.
    And, General and Mr. Colby, do you have anything to add to 
that?
    General Hodges. Congresswoman Houlahan, three things.
    First of all, the key to effective deterrence is rapidly 
identifying what is happening, to recognize what the Kremlin or 
what the Chinese might be up to, and that is going to require 
intelligence sharing at the speed of light. It won't be an 
American satellite that first detects the threat. It is going 
to be something else. So being able to knock down the walls 
that prevent information and intelligence sharing is going to 
be very important.
    Secondly, the infrastructure. We depend so much on 
transportation infrastructure, airports and seaports, around 
the world to do what we do. If those are not protected from 
cyber strike, then it is the same thing as if somebody launched 
Iskander missiles at the port of Bremerhaven. So investing in 
cyber protection and working with allies there.
    And then third, it is a specific example but I think it is 
illustrative. I am an infantry soldier, but I have grown to 
appreciate what maritime unmanned systems, Navy drones, how 
valuable those are. And the United States is leading in this 
field, sharing that with our allies in the Baltic Sea and the 
Black Sea.
    It is so much more cost effective for them to complement 
the surface vessels that they have and would significantly 
change the balance of power in the Black Sea, for example, 
against the [Russian] Black Sea Fleet.
    Ms. Houlahan. That is excellent. Thank you.
    And, Mr. Colby, do you have anything to add?
    Mr. Colby. Thanks, Congresswoman.
    Building on Ms. Wormuth's comments, with which I associate 
myself closely, I mean, I think that is right that we need to 
take more risk. I mean, I think this is an example of an area 
where, to use the academic kind of term, unipolarity has kind 
of put deep roots into the American defense establishment's 
mindset, which is to say I think candidly, when we think about 
a lot of planning and the way the American defense system went 
about things, allies were nice, but a lot of it was symbolic, 
with maybe the exception of the Brits and the Australians.
    And I think what we need to go back to is more of a Cold 
War model. The Cold War is always a dangerous analogy. I don't 
mean this writ large. But I mean in the sense that I think 
during the Cold War, you know, the great example, there was an 
American division and then a German division, an American 
division, a Belgian division, and so forth.
    And that involves risk. I mean, who knows if it sort of 
helps as well as the Germans or the Americans?
    But I think we do need to lean forward because you leave a 
lot of value on the table if you are too protective.
    Ms. Houlahan. Thank you.
    I have run out of time and I yield back.
    The Chairman. Thank you.
    Mr. Crow is recognized for 5 minutes.
    Mr. Crow. Thank you, Mr. Chairman.
    And thank you, all of you, for joining this great 
discussion.
    And, General Hodges, good to see you virtually. I know it 
is late where you are.
    I would like to start with Ms. Wormuth and Mr. Colby.
    The administration has announced a pretty drastic 
withdrawal and rapid withdrawal of our forces from Afghanistan. 
We have about 12,000 troops as part of the Resolute Support 
mission overall, but 5,000 of those or so are our NATO 
partners, and indeed the only time when Article 5 in the 
history of NATO has been invoked was after 9/11 when our NATO 
partners came to our aid.
    So very briefly, I would like to hear from Ms. Wormuth and 
Mr. Colby what the impact on that alliance would be and the 
message it would send if we were to withdraw without sufficient 
coordination and consultation with our allies who are there 
fulfilling their responsibilities to us under Article 5.
    Ms. Wormuth, do you want to begin?
    Ms. Wormuth. Congressman, thank you.
    Clearly we need to work closely with our allies who are 
still with us in Afghanistan to coordinate any kind of 
significant withdrawal, and certainly we are clearly in a 
process of drawing down there.
    As you know, several of our NATO allies have served 
importantly as framework nations. Many of them are still with 
us there. And for a long time our philosophy has been ``in 
together, out together.''
    So I think as we work through the final details of what the 
ultimate shape and composition of any continuing presence might 
be in Afghanistan, we are going to have to work closely with 
our allies to make sure that it is a coordinated effort and 
that everyone understands where we are trying to go and how we 
are going to get there together.
    Mr. Crow. Are you seeing that happening or hearing that? 
Because I am not. I am not hearing that we are going through 
that process.
    Ms. Wormuth. I have not been following the discussions in 
Afghanistan around that very closely, but certainly we are not 
communicating generally as much as I think we need to be to be 
on a whole range of issues, whether it is the withdrawal of 
12,000 folks from Germany or whether it is the details of how 
we are going to get out of Afghanistan.
    Mr. Crow. Mr. Colby, I am going to skip you because I want 
to get to General Hodges for a question, given my time 
constraints.
    General, the European Deterrence Initiative was passed in 
2014 as a way to rebolster our defenses and show our commitment 
to our NATO partners and others in Europe. The administration 
now has for two consecutive years reduced that budget and even 
shifted funds away from critical infrastructure and logistics 
investments.
    What has the impact been of those reductions on our 
alliances and the perception of our allies' commitment to the 
Russian aggression issue?
    General Hodges. Well, Mr. Crow, thank you.
    First of all, the European Reassurance Initiative and then 
the European Deterrence Initiative--Defense Initiative--we 
considered it when I was in U.S. Army Europe as oxygen. Without 
that, you could not get the rotational forces, both Active, and 
even more importantly, the Guard and Reserve, you couldn't get 
them in the quantity and the frequency that we needed.
    So those funds were extremely important for that, and also, 
of course, for improving infrastructure along NATO's eastern 
flank that we needed.
    And so as allies see that this is decreasing without some 
sort of explanation, they begin to associate that with, okay, 
is this part of the U.S. shifting away or pivoting to the 
Pacific? Are we losing interest?
    So the money, as well as the troops, are the two biggest 
signals that they follow.
    Mr. Crow. Thank you, General.
    And then very briefly also, General Hodges, there is the 2 
percent GDP requirement, but also there is the 20 percent major 
equipment requirement. But I am hearing from our allies that 20 
percent requirement should be reexamined because many of our 
partners there actually don't even have the personnel and the 
logistics to support additional major equipment purchases, the 
Belgians being one of them that are having recruiting problems, 
as well as logistical supply chain problems maintaining the 
equipment that they have now.
    Would you recommend reexamining that 20 percent major 
equipment requirement?
    General Hodges. Well, I think the 20 percent of the 2 
percent being for modernization is a good thing. It doesn't 
have to be necessarily new equipment.
    I think there are so many more ways that we could look at 
investment that ensures that the nations have--what they do 
have is at the right level of readiness. But there are other 
things that we need.
    Mr. Crow. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    I believe we have Mr. Keating. You are on the virtual 
platform there. We don't see a picture of you, and you are 
muted at the moment. So, Mr. Keating, are you with us?
    It would appear that he is not. And if so, that is all the 
people we have for questions.
    I really want to thank our witnesses today. This is not an 
easy setup, easy platform. I also really appreciate the work 
that the staff has gone into this.
    I mean, the reason we do this is because in the COVID 
environment it is not a good idea to have a large number of 
people in an enclosed space. So we take advantage of the CVC 
[Capitol Visitor Center] and we take advantage of being able to 
participate remotely so that they are not in the room, so that 
we can have fewer people in the room and hold hearings.
    I don't enjoy this anymore than anybody else does. And of 
the many things that we are all looking forward to getting back 
to doing, one of the big ones for me is to get back into 2118 
and hold our hearings the way we normally do. We will do that 
as soon as the guidance from the healthcare officials here in 
the Capitol tell us that is safe to do.
    In the meantime we will continue to do hearings along these 
lines. We are trying to get one set up for next week.
    And with that, I will yield to Mr. Thornberry.
    He has no closing remarks.
    Then we are adjourned. Thank you all.
    [Whereupon, at 2:17 p.m., the committee was adjourned.]



      
=======================================================================

                            A P P E N D I X

                           September 23, 2020

=======================================================================


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 23, 2020

=======================================================================

      

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           September 23, 2020

=======================================================================

      

            RESPONSE TO QUESTION SUBMITTED BY MRS. HARTZLER

    General Hodges. Thank you for this question. I regret that we did 
not get the chance to answer it in real time during the Hearing.
    First, it is important that the Congress continue to hold the 
Department of Defense accountable and responsible for creating a safe 
and healthy work environment for all of our Service Members and DOD 
civilians.
    Second, the Congress should expect and require that the Department 
of Defense set an appropriate example for all of our Allies and 
Partners for how every Member of our Team is respected and valued and 
treated . . . and to make it clear that there is no place for sexual 
assault within our formations if we are to maintain the appropriate 
level of readiness and if we expect qualified, talented young Women and 
Men to step forward and Serve in our Armed Forces.
    Third, the Department of Defense should work closely with the NATO-
designated ``Gender Advisor'' programs in all NATO headquarters, in 
order to find where there is common ground and understanding and where 
we might integrate our unique programs to get the best benefit.
    The United States is far ahead of most of our European Allies when 
it comes to integration of Women into our Armed Forces and in taking 
active measures to eliminate sexual assault. Our Scandinavian Allies 
and Partners are probably at the same level or slightly ahead of us . . 
. but the rest are lagging behind. Since it is now the norm that we are 
task organized at the tactical level, ie company and battalion, in many 
exercises and in the conduct of NATO operations, such as the enhanced 
Forward Presence Battle Groups, the Department of Defense should pay 
particular attention to these potential disparities to ensure that the 
overall combat readiness and effectiveness of these formations is 
strong, not eroded by the effects of sexual assault and sexual 
harassment.
    At a minimum, deployed U.S. units who are task organized with 
Allied and Partner units should have the same level of support as U.S.-
only units back in CONUS and that Soldiers from Allied and Partner 
nations should participate in training and education programs and 
command discipline programs required to ensure the elimination/
prevention of sexual assault. Special coordination will need to be made 
in the case of actual assaults and the resulting investigations and 
prosecution where appropriate. This is typically best done within the 
specific national chain of command.
    Thank you for the opportunity to answer this question.   [See page 
31.]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 23, 2020

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. KEATING

    Mr. Keating. Much of the discussion regarding our allies and 
partners--specifically with regards to those in Europe--centers on the 
U.S. bolstering our relationships with the elected officials of those 
countries. I feel there is a fundamental problem with this approach. 
Just last week, the Pew Research Center reported the results of a new, 
13-nation survey that revealed, not only is America's reputation among 
key allies and partners in decline, but in several of those countries 
the public's image of the U.S. ``is as low as it has been at any point 
since the Center began polling on this topic nearly two decades ago.'' 
This suggests we need to repair our image with the constituents of 
those elected officials that lead those ally and partner nations. What 
insights do you have on how we can best repair the reputation of the 
U.S. with the public overseas in support of our long term alliances and 
our development of new partnerships?
    Ms. Wormuth. Leaders in the United States do need to develop and 
cultivate strong relationships with elected leaders in our allied and 
partner countries, but it is also important to reach out to the publics 
in those countries. U.S. leaders can reach out to public overseas 
through speeches, visits to important cultural landmarks, schools or 
sporting events, and be taking advantage of opportunities on foreign 
visits to talk to individuals other than just government officials. 
People in other countries certainly pay attention to the words and 
actions of U.S. leaders, and their assessments of those actions are an 
important element of how overseas publics view the United States.
    At the same time, people overseas also form views of the United 
States based on what they see happening in our country, how Americans 
conduct themselves in host countries, and their own experiences if they 
are able to visit or live in the United States. In addition to U.S. 
leaders reaching out to members of the public in foreign countries, 
American citizens can be important ambassadors for the United States 
and play a role themselves in how people overseas view the United 
States. For example, studies have indicated that countries hosting U.S. 
military personnel and their families, for example, often have more 
positive views of the United States than those that do not. 
International exchange programs, both those aimed at sending Americans 
overseas and bringing foreigners to the United States, are excellent 
vehicles to build positive people-to-people relationships and 
demonstrate the many strengths of the United States. Congress has an 
important role to play in supporting international educational and 
cultural exchange programs, as well as ensuring that the United States 
remains a leader in hosting international students at our colleges and 
universities.
    Mr. Keating. Much of the discussion regarding our allies and 
partners--specifically with regards to those in Europe--centers on the 
U.S. bolstering our relationships with the elected officials of those 
countries. I feel there is a fundamental problem with this approach. 
Just last week, the Pew Research Center reported the results of a new, 
13-nation survey that revealed, not only is America's reputation among 
key allies and partners in decline, but in several of those countries 
the public's image of the U.S. ``is as low as it has been at any point 
since the Center began polling on this topic nearly two decades ago.'' 
This suggests we need to repair our image with the constituents of 
those elected officials that lead those ally and partner nations. What 
insights do you have on how we can best repair the reputation of the 
U.S. with the public overseas in support of our long term alliances and 
our development of new partnerships?
    General Hodges. Thank you. Key to rebuilding trust and confidence 
in the USA and in American Leadership requires five things:
    #1 Demonstrate commitment to NATO . . . remove all doubt that the 
U.S. is committed to continued leadership within the Alliance, despite 
its flaws. This includes acknowledging that we benefit from NATO as 
much as any of our Allies. . . . and that American access to bases and 
ports and training areas in Europe benefit us for executing our 
strategy in Africa and the Middle East and Eurasia as well as Europe.
    #2 Understand the importance of the European Union to European 
countries . . . that it is the key to their quality of life and 
economic development . . . and that the USA should look for ways to 
compete with the EU in the economic space but don't treat it as an 
enemy. It is at the core of life for most European countries.
    #3 Encourage private investment in Europe . . . especially central 
and eastern Europe . . . projects that improve transportation and 
telecommunications infrastructure, energy independence, education, and 
health care. This is part of competing with the Chinese Communist Party 
and the Kremlin.
    #4 Improve the relationship with Germany, our most important Ally. 
Germany is the one country that can change Kremlin behavior, due to its 
economic power and its leadership within the EU and Europe. We should 
still maintain high expectations of Germany fulfilling its NATO 
obligations . . . but that should not hinder us working together more 
closely.
    #5 Expand/sustain all programs that encourage student exchanges, 
cultural exchanges, sister city programs, and all other programs that 
build trust and confidence and understanding. I meet older Europeans 
all the time who tell me how much their experience as a young person in 
America as a student gave them a positive view of America and American 
ideals, even if they don't like some policies.
    Mr. Keating. Much of the discussion regarding our allies and 
partners--specifically with regards to those in Europe--centers on the 
U.S. bolstering our relationships with the elected officials of those 
countries. I feel there is a fundamental problem with this approach. 
Just last week, the Pew Research Center reported the results of a new, 
13-nation survey that revealed, not only is America's reputation among 
key allies and partners in decline, but in several of those countries 
the public's image of the U.S. ``is as low as it has been at any point 
since the Center began polling on this topic nearly two decades ago.'' 
This suggests we need to repair our image with the constituents of 
those elected officials that lead those ally and partner nations. What 
insights do you have on how we can best repair the reputation of the 
U.S. with the public overseas in support of our long term alliances and 
our development of new partnerships?
    Mr. Colby. Thank you, Mr. Keating, for the question. These results 
are clearly concerning. Buy-in from elected officials and 
parliamentarians and the publics they represent in allied and partner 
countries is critical for enduring, stable relationships with these 
states as well as their support in crises and conflicts. While the 
Executive Branch naturally has the leading role in U.S. foreign 
relations, this is an area where Congress can play an especially 
important role by signaling strong, bipartisan support for an American 
strategy along the lines of the National Defense Strategy and by 
engagement with parliamentarians, officials, and key opinion-shapers 
abroad. Overall, however, I remain confident in the fundamental appeal 
of the United States as an ally and partner in the regions of the world 
critical to our interests. Part of this, needless to say, is a result 
of our continuing status as a beacon of liberty and opportunity. 
Critically, though, we alone are strong enough to help states in 
regions like Asia and Europe avoid falling under the sway of their most 
ambitious and powerful neighbors. There is therefore a lasting 
structural attractiveness to aligning with the United States among many 
of the world's countries. To maintain this element of our appeal, it is 
critical that we sustain a strong defense and a vital, growing economy 
that underwrites it.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GOLDEN
    Mr. Golden. I would appreciate your perspectives on a recurring and 
often difficult to address issue impacting our national defense 
strategy--adversary operations in the grey zone between peace and 
conflict--and their impact on our relationships with allies and 
partners.
    The Commission on National Defense Strategy's 2018 ``Providing for 
the Common Defense'' report observed that grey zone operations have 
become the ``tool of choice for those who do not wish to confront U.S. 
military power directly,'' and because ``grey zone challenges combine 
military and paramilitary measure with economic statecraft, political 
warfare, information operations, and other tools, they often occur in 
the `seams' between DOD and other U.S. departments and agencies, making 
them all the more difficult to address.''
    Since responding to adversary grey zone operations is difficult 
within our own interagency process, it is likely even more challenging 
to coordinate a response to such tactics among our allies and partners.
    Some of our closest allies have already begun incorporating 
adversary grey zone tactics into their national defense strategies. 
Australia, for example, recently released its ``2020 Defence Strategic 
Update,' which stated that Australia's military must work with other 
branches of its government to respond to grey zone activities, and that 
such tactics are becoming ``integrated into statecraft and are being 
applied in ways that challenge sovereignty and habits of cooperation'' 
including ``to long established and mutually beneficial security 
partnerships.''
    I would appreciate your views on: (1) How can DOD better coordinate 
with our allies to respond in a more comprehensive manner to grey zone 
operations by countries such as China and Russia? and (2) When 
considering the frequent difficulty of responding to grey zone 
operations, are current defense partnerships with longstanding allies 
adequate or might additional agreements be required?
    Ms. Wormuth. The most important step to better coordinating with 
our allies in a more comprehensive manner would be to develop a 
comprehensive, whole of government strategy for competition with China 
and Russia; addressing gray zone challenges should be a subset of that 
larger effort. Working closely with allies and partners is an essential 
element of a comprehensive, proactive competitive strategy and while 
gray zone challenges are certainly an agenda item in many bilateral 
conversations there is a need for a more coordinated approach so that 
the United States and its allies can respond to provocations more 
quickly in the future. While our allies and partners may not agree with 
the United States on how to react to every specific provocation, 
aggressive actions by both China and Russia are raising concerns in 
both the Indo-Pacific and Europe, creating an opportunity for the 
United States to build coalitions to counter gray zone activity. In 
addition to developing a U.S. government-wide comprehensive competitive 
strategy, the Department of Defense can take some specific steps to 
support and enable the broader strategy. In particular, DOD should 
continue to reaffirm its commitment to allies and partners in Europe 
and Asia, and back these statements with increased activity in forums 
dealing with gray zone activity such as cyber-attacks and 
disinformation. DOD could increase its involvement with regional 
organizations like ASEAN and the European Union, and build on its 
already robust exercise program to include a focus on thwarting gray 
zone activity where appropriate. In most cases, existing defense 
partnership agreements and alliance agreements already provide a broad 
scope for DOD to deepen its focus on combating gray zone activity in 
concert with allies and partners. More than a need for new 
arrangements, the challenge for DOD is determining how to design 
multilateral responses with partners and allies who may have different 
risk tolerances than the United States when it comes addressing Russian 
and Chinese behavior. Frequent conversations with allies and partners 
about gray zone activity and how best to counter it in their regions 
before specific situations arise would better position DOD to gain 
allied and partner support quickly when confronted with a provocation.
    Mr. Golden. I would appreciate your perspectives on a recurring and 
often difficult to address issue impacting our national defense 
strategy--adversary operations in the grey zone between peace and 
conflict--and their impact on our relationships with allies and 
partners.
    The Commission on National Defense Strategy's 2018 ``Providing for 
the Common Defense'' report observed that grey zone operations have 
become the ``tool of choice for those who do not wish to confront U.S. 
military power directly,'' and because ``grey zone challenges combine 
military and paramilitary measure with economic statecraft, political 
warfare, information operations, and other tools, they often occur in 
the `seams' between DOD and other U.S. departments and agencies, making 
them all the more difficult to address.''
    Since responding to adversary grey zone operations is difficult 
within our own interagency process, it is likely even more challenging 
to coordinate a response to such tactics among our allies and partners.
    Some of our closest allies have already begun incorporating 
adversary grey zone tactics into their national defense strategies. 
Australia, for example, recently released its ``2020 Defence Strategic 
Update,' which stated that Australia's military must work with other 
branches of its government to respond to grey zone activities, and that 
such tactics are becoming ``integrated into statecraft and are being 
applied in ways that challenge sovereignty and habits of cooperation'' 
including ``to long established and mutually beneficial security 
partnerships.''
    I would appreciate your views on: (1) How can DOD better coordinate 
with our allies to respond in a more comprehensive manner to grey zone 
operations by countries such as China and Russia? and (2) When 
considering the frequent difficulty of responding to grey zone 
operations, are current defense partnerships with longstanding allies 
adequate or might additional agreements be required?
    General Hodges. The key to success here is to look at this as part 
of Great Power Competition and that we have to compete in all domains . 
. . diplomacy, information, military, and economic (DIME) . . . it 
can't be just DOD . . . it will take most of the other departments of 
the U.S. Govt . . . and to recognize that neither the Kremlin or the 
Chinese Communist Party play by the same rules observed by the USA and 
our Western Allies. Instead they work thru the continuum of national 
power in all domains, and using illegal as well as legal means, to 
achieve their aims. This also means that we have to make a focused 
effort on building up societal resilience within the USA and within the 
societies of our Allies and Partners. Sweden and Norway are doing a 
particularly good job on this. This means taking steps to build/rebuild 
confidence in the pillars of our liberal democracy (electoral process, 
judicial process, media, governmental competence) in order to reduce 
our vulnerability to disinformation, hardening our vulnerable 
infrastructure from cyber-attacks, and reducing our reliance on foreign 
energy and critical materials and medicen. The U.S. Govt needs to work 
more closely with NATO, not as an afterthought or `additive' measure 
but as the start-point, if we want to have coordinated efforts with the 
leading nations of Europe, especially Germany, France, and UK. This 
will help us achieve a common view of the threat . . . often the 
hardest part since many European nations, especially in western and 
southern Europe, are reluctant to be so blunt in assessing the Kremlin 
or China.
    Mr. Golden. I would appreciate your perspectives on a recurring and 
often difficult to address issue impacting our national defense 
strategy--adversary operations in the grey zone between peace and 
conflict--and their impact on our relationships with allies and 
partners.
    The Commission on National Defense Strategy's 2018 ``Providing for 
the Common Defense'' report observed that grey zone operations have 
become the ``tool of choice for those who do not wish to confront U.S. 
military power directly,'' and because ``grey zone challenges combine 
military and paramilitary measure with economic statecraft, political 
warfare, information operations, and other tools, they often occur in 
the `seams' between DOD and other U.S. departments and agencies, making 
them all the more difficult to address.''
    Since responding to adversary grey zone operations is difficult 
within our own interagency process, it is likely even more challenging 
to coordinate a response to such tactics among our allies and partners.
    Some of our closest allies have already begun incorporating 
adversary grey zone tactics into their national defense strategies. 
Australia, for example, recently released its ``2020 Defence Strategic 
Update,' which stated that Australia's military must work with other 
branches of its government to respond to grey zone activities, and that 
such tactics are becoming ``integrated into statecraft and are being 
applied in ways that challenge sovereignty and habits of cooperation'' 
including ``to long established and mutually beneficial security 
partnerships.''
    I would appreciate your views on: (1) How can DOD better coordinate 
with our allies to respond in a more comprehensive manner to grey zone 
operations by countries such as China and Russia? and (2) When 
considering the frequent difficulty of responding to grey zone 
operations, are current defense partnerships with longstanding allies 
adequate or might additional agreements be required?
    Mr. Colby. Thank you, Mr. Golden, for the question. By far the most 
serious threat to American political interests in the world is defeat 
in war; by definition provocations in the gray zone pose a far less 
significant threat. Moreover, challenges in the gray zone can often be 
a reflection of our success--the opponent's recognition that direct 
challenges to U.S. interests are too dangerous or futile to be 
countenanced. Thus, while activities under our threshold for the use of 
military force may in certain contexts be concerning, I believe that 
the overwhelming primary focus of the U.S. defense establishment must 
be ensuring the Joint Force can prevail in the conflicts that matter to 
us. This requires a clear focus on restoring the American military's 
warfighting edge in light of the rise of Chinese military power in 
particular. This means that gray zone challenges must be dealt with 
economically, in ways that do not detract from the overriding goal of 
preparing for war to deter it. This is a serious issue because 
responding to gray zone provocations can eat up time, effort, and 
resources that would otherwise be used by our armed forces for training 
or outfitting for high-end conflict scenarios. Moreover, responding to 
gray zone activities is very often a matter far more of political-
diplomatic, economic, and intelligence responses than military ones. 
Thus in most circumstances other organs of the U.S. Government than the 
Department of Defense should play the leading and most significant 
roles in these areas.\1\ That said, the gray zone is a concern. In 
addition to economically and selectively employing our armed forces to 
deal with gray zone provocations, we can help address them through 
encouragement of allies and partners to take on a greater role. The 
most effective way to do so is to encourage allies and partners that 
have the most resolve to push back on particular gray zone provocations 
to lead the way in doing so. The United States can then focus largely 
on being the ``cavalry'' that can swiftly ride in to ``save the day'' 
if needed. At the same time, we can help bolster the ability of allies 
and partners to do this through arms transfers and other forms of 
capacity-building, and their resolve by reassuring them of our 
willingness to stand by them effectively if they are pressed by our 
common adversaries. Thus, for instance, the United States is better off 
aiding Japan to be the ``face'' of resistance to gray zone salami-
slicing tactics by China in the East China Sea and aiding the 
Philippines, Vietnam, and other friendly claimants to do the same in 
the South China Sea. The United States can retain its military forces 
primarily to deter China from escalating to try to dominate these U.S. 
allies and partners.
---------------------------------------------------------------------------
    \1\ For a valuable elaboration, see Jim Mitre and Andre Gellerman, 
``Defining DOD's Role in Gray Zone Competition,'' Center for a New 
American Security, August 24, 2020, https://www.cnas.org/publications/
commentary/defining-dods-role-in-gray-zone-competition.
---------------------------------------------------------------------------

                                  [all]
</pre></body></html>
